     DEPARTMENT OF HOMELAND SECURITY

      Ofﬁce of Inspector General


              An Evaluation of the Transportation
	
              Security Administration’s Screener
	
               Training and Methods of Testing
	




Notice: The Department of Homeland Security, Ofﬁce of Inspector General, has redacted this
report for public release based on input from the relevant government entity pursuant to 49
C.F.R. Part 1520. Those redactions are identiﬁed as Part 1520 in the report. A review under the
Freedom of Information Act, 5 U.S.C. § 552, will be conducted upon request.




  Ofﬁce of Inspections, Evaluations, & Special Reviews


OIG-04-045                                      September 2004
                                                                      Ofﬁce of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG as part of its DHS oversight responsibility to identify and prevent fraud,
waste, abuse, and mismanagement.

This report assesses the strengths and weaknesses of the program or operation under review. It
is based on interviews with employees and ofﬁcials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to the OIG,
and have been discussed in draft with those responsible for implementation. It is my hope that
this report will result in more effective, efﬁcient, and economical operations. I express my
appreciation to all of those who contributed to the preparation of this report.




                                              Clark Kent Ervin
                                              Inspector General
                                                                                                                       Contents
	

Introduction......................................................................................................................................5
	

Results in Brief ................................................................................................................................6
	

Background ......................................................................................................................................9
	

Purpose, Scope, and Methodology.................................................................................................13
	

Findings……………………………………………………………………………… .................14
	

     Basic Screener Classroom Training .........................................................................................14
	
        Analysis..............................................................................................................................14
	
        Design ................................................................................................................................16
	
        Implementation ..................................................................................................................28
	
        Evaluation ..........................................................................................................................37
	

     Basic Screener On-The-Job Training.......................................................................................41
	
        Analysis..............................................................................................................................41
	
        Design ................................................................................................................................43
	
        Implementation ..................................................................................................................47
	
        Evaluation ..........................................................................................................................48
	

     Recurrent Training and Recertiﬁcation Testing .......................................................................49
	
        Recurrent Program Has Been Established .........................................................................50
	
        Annual Screener Recertiﬁcation Testing for FY 2003-04 Has Been Completed...............58
	

     Other Issues Related to Screener Training, Screener Performance, and an Increase in the
     Detection of Prohibited Items ..................................................................................................62
	
        Use of the Online Learning Center Is Limited by Network Access...................................62
	
        Speciﬁc Screening Equipment Training and Certiﬁcation Is Necessary............................66
	
        Efforts to Advance the Development and Deployment of New Screening Technologies 

        Should Be Accelerated....................................................................................................... 70
	
        Future Planning Should Account for Continually Changing Training Requirements .......73
	




                      An Evaluation of TSA’s Screener Training and Methods of Testing                                                          Page 1
	
Contents
	

Appendices
   Appendix A:   Management Comments.......................................................................................75
	
   Appendix B:   OIG Evaluation of Management Comments ........................................................94
	
   Appendix C:   Recommendations ..............................................................................................107
	
   Appendix D:   TSA’s Interim Screener Recurrent Training Program Guidance ........................110
	
   Appendix E:   Major Contributors to This Report .....................................................................115
	
   Appendix F:   Report Distribution.............................................................................................116
	


Figures
    Figure 1:    Summary of Basic Screener Training Observations ..............................................8
	
    Figure 2:    Checked Baggage Screener Basic Curriculum Activities Conducted..................33
	
    Figure 3:    Required Cross-Training Hours for EDS Co-Located with ETD ........................45
	
    Figure 4:    Screener Recertiﬁcation Performance..................................................................60

    Figure 5:    OLC Use ..............................................................................................................63

    Figure 6:    Security Screening Equipment Models Currently in Use ....................................66
	
    Figure 7:    Model-speciﬁc Screener ETD Training ...............................................................68
	
    Figure 8:    On-Duty Screener EDS Certiﬁcations .................................................................69
	




Page 2                               An Evaluation of TSA’s Screener Training and Methods of Testing
                                                                             Contents
	


Abbreviations
   AMTAP        Automated Multi-Level Training Assessment Program
   ATSA         Aviation and Transportation Security Act
   CBT          Computer-Based Training
   DFS          Dual Function Screener
   DHS          Department of Homeland Security
   DOT          Department of Transportation
   EDS          Explosives Detection System
   ETD          Explosives Trace Detection
   EQA          Ofﬁce of Evaluation and Quality Assurance
   FAA          Federal Aviation Administration
   FSD          Federal Security Director
   FY           Fiscal Year
   GAO          Government Accountability Ofﬁce
   IED          Improvised Explosive Device
   IIT          Image Interpretation Test
   IMT          Image Mastery Test
   IPR          Image Proﬁciency Review
   LEO          Law Enforcement Ofﬁcer
   MBS-2        Modular Bomb Set, Version II
   OIAPR        Ofﬁce of Internal Affairs and Program Review
   OIG          Ofﬁce of Inspector General
   OJT          On-The-Job Training
   OLC          Online Learning Center
   SOP          Standard operating procedure
   SPR          Standard Proﬁciency Review
   TAI          TSA approved instructor
   TIP          Threat Image Projection
   TRX          TIP-Ready X-ray Machine
   TSA          Transportation Security Administration
   TSL          Transportation Security Lab
   WPT          Ofﬁce of Workforce Performance and Training




           An Evaluation of TSA’s Screener Training and Methods of Testing         Page 3
Contents
	




Page 4       An Evaluation of TSA’s Screener Training and Methods of Testing
OIG
	
Department of Homeland Security
Ofﬁce of Inspector General


    Introduction
                       In response to the September 11, 2001, terrorist attacks in the United States,
                       Congress enacted the Aviation and Transportation Security Act, Public Law No.
                       107-71 (ATSA), which established the Transportation Security Administration
                       (TSA). On February 17, 2002, TSA ofﬁcially assumed responsibility for civil
                       aviation security functions and began hiring and training federal employees to
                       perform passenger checkpoint and checked baggage screening functions. ATSA
                       requires a basic screener training program that consists of 40 hours of classroom
                       instruction, 60 hours of on-the-job training (OJT), and an OJT examination
                       before screeners may perform duties independently. After meeting these initial
                       requirements, screeners must also receive recurrent training, operational testing,
                       and an annual proﬁciency review, which includes TSA’s annual screener
                       recertiﬁcation testing.

                       TSA developed two basic training courses to address the needs of passenger and
                       checked baggage screeners. Although both types of screeners are taught some
                       shared knowledge and skills, passenger checkpoint screeners develop additional
                       skills in X-ray operation, screening of persons, and searching accessible property,
                       while checked baggage screeners develop additional skills in searching checked
                       baggage and operating certain machines that detect explosives. TSA’s early
                       versions of the basic training courses received criticism from the Department
                       of Transportation and Department of Homeland Security Ofﬁces of Inspector
                       General for the quality of OJT and checked baggage screener testing. In June
                       2003, TSA’s Ofﬁce of Workforce Performance and Training announced plans for
                       course revisions. We initiated this review to determine whether TSA updated the
                       courses and is meeting the training requirements set by ATSA.




                   An Evaluation of TSA’s Screener Training and Methods of Testing                  Page 5
Results in Brief
	
                 Since the initial deployment of federal screeners in 2002, TSA’s basic screener
                 training program has been improved through multiple revisions and amendments.
                 TSA’s December 2003 revisions to the passenger and checked baggage screener
                 basic training aligned the course materials with TSA’s latest standard operating
                 procedures, presented detailed and technically accurate information, and
                 addressed most topics in sufﬁcient depth without devoting excess class time to
                 extraneous matter. These revisions, however, were not supported by a systematic
                 or comprehensive instructional systems design process and, as a result, were
                 incomplete.

                 For classroom courses, passenger checkpoint screeners received adequate
                 instruction, practice, and testing to demonstrate that they learned how to perform
                 screening functions described in the standard operating procedures, such as
                 screening passengers with the hand-held metal detector. The same was not
                 true, however, of checked baggage screeners, who received far less hands-on
                 practice, partly because of insufﬁcient access to practice equipment. In addition,
                 some checked baggage screeners received training on a model of Explosives
                 Trace Detection (ETD) machine different from the one on which they would be
                 working. Furthermore, neither passenger nor checked baggage screeners received
                 instruction, practice, or testing for some skills necessary to their functions, such
                 as safety skills to handle deadly or dangerous weapons and objects. Although
                 TSA planned for screeners to acquire additional skills during OJT, guidelines for
                 both types of screeners did not include materials to support training on deferred
                 content. Classroom and OJT could have beneﬁted from more thorough advance
                 planning and analysis to select course content and frame the curriculum.

                 Test design and administration for the classroom and OJT require further revision.
                 Since we faulted the checked baggage classroom training quizzes and written
                 examinations for a lack of rigor in June 2003, TSA revised and eliminated
                 repetitive and simplistic test questions. However, TSA deployed new checked
                 baggage examinations in December 2003 without pilot-testing and validating the
                 passing score, resulting in a spike in examination failures, which TSA redressed
                 with further test revision and by providing the option of re-training to terminated
                 screeners. For both the passenger checkpoint and checked baggage practical
                 demonstration examinations, TSA did not standardize the instructor delivery, test




Page 6                      An Evaluation of TSA’s Screener Training and Methods of Testing
    scenarios, scoring of performance steps, and test equipment or props available. 

    Variation in administration of the practical demonstration examinations, which
    occurred in both classroom and OJT, resulted in the deployment of screeners
    with different levels of course material mastery. We understand TSA’s interest in
    expediting course and test design, but view the short-cuts as signiﬁcant ﬂaws that
    have weakened the training program. The following table summarizes our major
    observations of the December 2003 passenger checkpoint and checked baggage
    basic training courses that are discussed in this report:




An Evaluation of TSA’s Screener Training and Methods of Testing                 Page 7
                                            Figure 1. Summary of Basic Screener Training Observations
	

                                                                                        As of December 1, 2003
                                                   Observations                                    Checked         Page
                                                                                    Passenger
                                                                                                   Baggage       References
                                              Analysis Framed Course Design             no           no              14
                                              Necessary Skills Trained and
                                                                                        no             no          17, 25
                                              Tested
                                              Students Trained on Equipment
                                                                                       N/A1            no            66
                                              Models in Use at Their Airports
                                              Curriculum Materials
                                        C
                                              Technically Accurate and                  yes           yes            16
                                        L
                                              Detailed
                                        A
                                              Lesson Objectives Conveyed to
                                        S                                               yes            no            20
                                              Students
                                        S
                                        R     Ample Hands-on Practice                   yes            no            32
                                        O     Sufﬁcient Training Materials
                                        O                                               no             no          25, 32
                                              and Equipment Available
                                        M
                                              Written Exams Pilot-Tested and
                                                                                        no             no          21, 37
                                              Adequately Validated
                                              Standardized Administration of
                                                                                        no             no        24, 34, 37
                                              Practical Demonstration Exams
                                              Sufﬁcient Steps Taken to
                                                                                        no             no            23
                                              Prevent Exam Compromise
                                        O     Analysis Framed Course Design             no             no            41
                                        N     Curriculum Materials
                                                                                        no             no            43
                                              Adequately Detailed
                                        T
                                        H     Necessary Skills Trained and
                                                                                        no             no          41, 46
                                        E     Tested
                                              Monitors Certiﬁed to Train
                                                                                        no             no            47
                                        J     Screeners
                                        O     Standardized Administration of
                                        B                                               no             no            48
                                              Practical Demonstration Exams




1
 The December 1, 2003, passenger basic curriculum did not provide model-speciﬁc training for the equipment that passenger screeners
use, including the Explosives Trace Detection machines. Checked Baggage screeners receive model-speciﬁc training for the Explosives
Trace Detection machines and Explosives Detection Systems.




Page 8                                      An Evaluation of TSA’s Screener Training and Methods of Testing
                                In addition to the basic screener training programs, we also reviewed TSA’s 

                                recurrent training, annual screener recertiﬁcation testing, and issues related to
                                increasing screeners’ performance in detecting prohibited items. TSA made
                                signiﬁcant improvements to the recurrent training program, setting a screener
                                training requirement of three hours per week and distributing an array of
                                training materials and tools to airports. Also, TSA recently completed its ﬁrst
                                annual screener recertiﬁcation testing. However, both programs require further
                                development. For example, the Online Learning Center, TSA’s intranet-based
                                tool for tracking and disseminating recurrent training, is only partially available
                                to the majority of airports because TSA has not yet established sufﬁcient network
                                connectivity for computer training labs. TSA is planning to address other
                                identiﬁed needs, such as fully testing cross-trained screeners2 in both passenger
                                checkpoint and checked baggage screening skills during the next annual screener
                                recertiﬁcation.

                                Because screener performance in detecting prohibited items is not a reﬂection of
                                training alone, TSA should also improve supervisory reinforcement of screener
                                training and account for continually changing training requirements. Most
                                importantly, TSA should accelerate efforts to develop and deploy advanced
                                screener technologies because their application holds the greatest long-term
                                potential for reducing airport security system vulnerabilities and increasing the
                                detection of prohibited items.

                                An April 2004 revision to the basic screener training program, the Dual Function
                                Screener Course, begins to address some issues raised in our review. In addition,
                                TSA’s Ofﬁce of Workforce Performance and Training has developed internal
                                plans and analyses to help guide improvements to the screener training program.
                                This report contains 22 recommendations to the TSA Administrator to improve
                                security screener training and methods of testing (see Appendix C).



Background
                                In November 2001, the President signed the Aviation and Transportation Security
                                Act (ATSA), which created TSA within the Department of Transportation (DOT).
2
    Cross-training certiﬁes baggage screeners on passenger screener operations or passenger screeners on baggage screener operations.




                          An Evaluation of TSA’s Screener Training and Methods of Testing                                           Page 9
                             ATSA mandated that TSA deploy federal personnel to oversee the screening 

                             of all commercial airline passengers by November 19, 2002, and checked
                             baggage by December 31, 2002. TSA hired, trained, and deployed over 55,000
                             federal passenger and checked baggage screeners by the mandated deadlines
                             to commercial airports across the United States.3 On March 1, 2003, TSA was
                             integrated into the Department of Homeland Security (DHS) under the Border and
                             Transportation Security Directorate.

                             Before September 11, 2001, screeners operating under the Federal Aviation
                             Administration’s (FAA) regulatory authority were required to undergo 12 hours
                             of classroom instruction and 40 hours of OJT. In contrast, ATSA required that
                             within 60 days of its enactment TSA develop a basic screener training program
                             with a minimum of 40 hours classroom instruction, 60 hours of OJT, and an
                             OJT examination. In response, TSA developed separate basic training programs
                             for passenger checkpoint and checked baggage screeners that met the ATSA
                             requirements. During the passenger checkpoint basic training program, TSA
                             trained passenger checkpoint screeners to screen persons and their accessible
                             property by operating walk-through metal detectors, X-ray machines, hand-held
                             metal detectors, and ETD machines and by performing pat-downs of persons and
                             physical searches of bags. During the checked baggage basic training program,
                             TSA trained checked baggage screeners to screen checked baggage by operating
                             Explosives Detection System (EDS) and ETD machines and by performing
                             physical searches of bags.

                             TSA conducts classroom training at airports where a large number of newly hired
                             screeners await training. Newly hired screeners located at airports where training
                             is not taking place are scheduled and deployed to airports where classroom
                             training is conducted. The number of courses offered depends upon the number of
                             newly hired screeners in need of training.4




3
  Five commercial airports (San Francisco; Rochester, N.Y.; Tupelo, Miss.; Jackson, Wyo.; and Kansas City, Mo.) participate in a pilot
program that allows them to employ screeners privately. These non-federal screeners must meet TSA training standards, and they attend the
same basic training courses and participate in recurrent training and annual recertiﬁcation.
4
  In December 2003, the typical class size for the Checked Baggage Screener Basic Course and the Passenger Screener Combo Basic
Training Course was 15 and 24 students, respectively.




Page 10                                    An Evaluation of TSA’s Screener Training and Methods of Testing
                            To prepare federal screeners for their initial deployment, TSA contracted
                            with Lockheed Martin to provide basic training and track OJT for passenger
                            checkpoint screeners. Boeing Service Company received the contract to provide
                            a similar training program for checked baggage screeners. Both companies
                            employed several subcontractors to perform contracted tasks. In May 2003,
                            Lockheed Martin was awarded the contract to provide both types of training. TSA
                            was appropriated approximately $206 million for screener training and trained
                            25,387 newly hired screeners in FY 2003. In FY 2004, approximately $112
                            million was appropriated, and 9,579 newly hired screeners were trained as of June
                            18, 2004. TSA requested a total of $145 million for training in FY 2005.5

                            Since the initial deployment of TSA’s screener workforce, the screener training
                            program and the performance of federal screeners have been the subject of
                            numerous reports and articles. On January 26 and January 28, 2003, Newsday
                            printed two articles alleging that TSA instructors of checked baggage courses
                            held at LaGuardia Airport in New York provided students answers to questions
                            prior to their taking the ﬁnal examination. TSA’s Ofﬁce of Internal Affairs and
                            Program Review (OIAPR) conducted a review of these allegations. Following
                            OIAPR’s report, we initiated an inspection of OIAPR’s review on June 12, 2003.
                            Although OIAPR’s ﬁndings were supported by its interviews and analysis, we
                            noted serious concerns regarding TSA’s testing plan. Speciﬁcally, TSA instituted a
                            training and testing method that prepared each student to answer a speciﬁc set of
                            questions upon examination. By doing this, TSA lost the opportunity to evaluate
                            the student’s mastery and comprehension of the course material. In addition, we
                            expressed concerns about the content and phrasing of examination questions that
                            provided obvious clues to correct answers.6

                            Also on June 12, 2003, TSA’s Workforce Performance and Training Division
                            (WPT) issued an internal memorandum that provided information on actions
                            planned by TSA to update, modify, and improve the training of checked baggage
                            screeners. These actions included (1) a complete review of the program and
                            the reﬁnement of areas needing improvement; (2) a revamping of all quizzes


5
 Data provided by the Transportation Security Administration, June 18, 2004.
	
6
 Department of Homeland Security, Ofﬁce of Inspector General, Ofﬁce of Inspections, Evaluations, and Special Reviews, “Transportation 

Security Administration’s Checked Baggage Screener Training and Certiﬁcation: A Letter Report,” Report #ISP-02-03, August 2003.
	




                       An Evaluation of TSA’s Screener Training and Methods of Testing                                       Page 11
          and formal test material to ensure there is no duplication of questions; and (3) a
          review of the updated testing materials to ensure test validity.

          In our initial inspection, we committed to a follow-up review of TSA’s training
          and testing methods to evaluate the effectiveness of the changes TSA announced it
          would make. In response to growing public attention to airport security measures
          and the performance of both passenger and checked baggage screeners, we
          included the quality of both the passenger and checked baggage screener training
          programs in our review.

          When we began ﬁeldwork for this report in December 2003, TSA continued to
          require newly hired checked baggage screeners to complete 40 hours of classroom
          instruction by attending the Checked Baggage Screener Basic Training course
          and 60 hours of OJT. However, in partial fulﬁllment of TSA’s June 2003 pledge,
          the December 2003 checked baggage course included revised training and
          testing materials. For passenger checkpoint screeners, TSA required successful
          completion of 47 hours of classroom instruction by attending the Passenger
          Screener Combo Basic Training course and 60 hours of OJT. Similar to the
          checked baggage course, the December 2003 passenger checkpoint course offered
          revised training and testing materials.

          On April 5, 2004, TSA introduced its new 91.5-hour Dual Function Screener
          (DFS) training course to replace the previous basic screener curriculum for
          newly hired screeners. This course, taught over nine days, builds on and
          updates the materials from the December 2003 courses. The DFS course is a
          longer, modularized course designed to equip newly hired screeners with the
          knowledge, skills, and ability to perform successfully all the duties associated
          with both passenger and checked baggage screening. Newly hired screeners
          who are expected to operate EDS machines must pass all job-knowledge testing
          associated with the DFS course and receive an additional two days of training on
          EDS machine operation. Because it was introduced near the completion of our
          ﬁeldwork, we did not review the DFS course curriculum. TSA staff commented
          that the DFS course revisions resolve some of the issues raised in this report,
          particularly regarding test development. Where we were able to verify the
          revisions, they are incorporated in the text of the report; further TSA comments
          are in Appendices A and B.




Page 12              An Evaluation of TSA’s Screener Training and Methods of Testing
Purpose, Scope, and Methodology
               We reviewed TSA’s basic screener training and methods of testing to determine
               whether (1) screener training established the qualiﬁcations, knowledge, skills,
               and aptitudes necessary to detect items not authorized by federal law on aircraft,
               and (2) testing methods enabled TSA to identify students who will successfully
               perform as passenger or checked baggage screeners. In addition, we followed
               up to determine whether the TSA revamped the quizzes and ﬁnal examinations
               given during classroom training, which we criticized in our ﬁrst report. Finally,
               we determined whether recurrent training, weekly X-ray image interpretation
               training, screener performance improvement videos, and recertiﬁcation testing
               were planned and implemented effectively by TSA.

               We analyzed ATSA and reports related to screener training written by DHS
               OIG, DOT OIG, Government Accountability Ofﬁce (GAO), and TSA’s OIAPR.
               Additionally, we analyzed TSA policies, procedures, documentation, standard
               operating procedures (SOPs), and contracts relevant to passenger and checked
               baggage screener basic training. We also examined TSA and contractor passenger
               and checked baggage screener basic training curriculum materials and manuals,
               methods of testing and tools used, and related records.

               We interviewed TSA personnel at headquarters and six TSA ﬁeld ofﬁces,
               including Federal Security Directors (FSDs), Deputy Federal Security Directors,
               training coordinators, scheduling ofﬁcers, supervisory transportation security
               screeners, and screening managers. We also interviewed TSA contractor training
               personnel from Lockheed Martin Corporation and its subcontractors, including
               basic screener classroom training instructors. Last, we interviewed ofﬁcials
               from the manufacturers of security screening equipment, including InVision, GE
               IonTrack, Smiths Detection, and Thermo Electron Corporation, and ofﬁcials from
               TSA’s Transportation Security Laboratory.

               We observed three 40-hour Checked Baggage Screener Basic Courses — two
               on the operation of CTX 2500/5500 EDS and Ionscan 400B ETD machines and
               one on the operation of 3DX 6000 EDS and Ionscan 400B ETD machines. We
               also observed three 47-hour Passenger Screener Combo Basic Courses and one
               Passenger to Checked Baggage Cross-Training Course. In addition, we visited
               three ﬁeld locations to observe OJT.




           An Evaluation of TSA’s Screener Training and Methods of Testing                 Page 13
                             We patterned our review of these courses after a common instructional systems
                             design model, which focuses on identifying employee performance needs,
                             designing training to meet the needs, and evaluating training to ensure the needs
                             have been met. The model organizes instructional design into systematic phases:
                             analysis, design, development, implementation, and evaluation. In general,
                             analysis involves identifying training needs and selecting training content; design
                             involves outlining the course, including lesson objectives and tests; development
                             involves producing course materials; implementation includes training delivery;
                             and evaluation involves assessing student learning and course quality in order
                             to identify improvements. Our evaluation emphasized the analysis, design,
                             implementation, and evaluation phases.7

                             Our ﬁeldwork was conducted from December 2003 to May 2004. The inspection
                             was conducted under the authority of the Inspector General Act of 1978, as
                             amended, and according to the Quality Standards for Inspections issued by the
                             President’s Council on Integrity and Efﬁciency.



Findings

          Basic Screener Classroom Training


                   Analysis

                             Training development should begin with a formal analysis to identify employee
                             training needs, a process that federal regulations require agencies to perform
                             at least annually.8 While ATSA establishes minimum training needs for TSA,
                             such as 40 hours of classroom instruction for new screeners, systematic and
                             comprehensive analysis is fundamental to selecting the speciﬁc training content


7
  Assessing the efﬁciency and effectiveness of TSA’s actions during the development phase, such as contracting out the production of 

training materials, was outside the scope of this review. 

8
  5 C.F.R. 410.203; Executive Order 11348, Providing for the Further Training of Government Employees, April 20, 1967; and OPM’s 

Human Capital Assessment and Accountability Framework.
	




Page 14                                     An Evaluation of TSA’s Screener Training and Methods of Testing
                              and aims.9 TSA has not yet completed or applied training analysis to the design
                              of the basic screener training program. Several of TSA’s work products contain
                              information pertinent to the analysis, including the 2002 Skills Standards for
                              Transportation Security Screeners, the SOPs and Aviation Operations Directives
                              that delineate screening tasks, and the 2003 Passenger Screener Performance
                              Improvement Study. To date, WPT applied this guiding information to the basic
                              training courses only partially. However, WPT indicated to us that it plans to
                              conduct a full analysis in support of its next course revisions.

                              Because TSA began hiring and training screeners within two months of its
                              formation, the initial basic screener training courses were not shaped by a
                              formal analysis, which would have consumed the time TSA spent designing and
                              developing the courses prior to rollout. However, as TSA revised the courses
                              several times over the eighteen months following their ﬁrst use, TSA did not
                              revisit the analysis phase and complete a full assessment of speciﬁc screener
                              training needs and course aims. WPT staff said that the comprehensive March
                              2002 Skills Standards for Transportation Security Screeners10 could serve as
                              the foundation of analysis for the basic screener training program. However,
                              WPT has not used the study to guide the revision of the basic screener training
                              program. Instead, WPT primarily applied TSA’s SOPs and Aviation Operations
                              Directives to determine the content of the December 2003 revisions. The SOPs
                              and directives contain detailed information on how to perform TSA-approved
                              screening methods. While their incorporation in the curricula was a positive
                              step, they contain a less comprehensive list of screener job tasks than the Skills
                              Standards. A number of job tasks listed in the Skills Standards are incompletely
                              addressed in or absent from the basic training courses. Further, neither the Skills
                              Standards nor the SOPs and Aviation Operation Directives set levels for screener



9
  One interpretation of analysis deﬁnes its primary components as needs assessment, performance analysis, and task analysis. During needs
assessment, the agency identiﬁes what employee performance changes are needed to meet organizational goals. If changes are needed,
performance analysis helps the agency identify and select tools and strategies for change, which may include not only training but also
environmental and motivational options. When the agency selects a training strategy, task analysis helps the agency develop job duties into
discrete tasks, training content, and measurable objectives.
10
   The study inventories screener responsibilities and includes a weighted, supporting list of knowledge and skills that passenger checkpoint
screeners must show in order to succeed on the job, ranging from customer service skills to screening animal cages. The study, which has
undergone several revisions and accounts for some checked baggage screener responsibilities, would help WPT to select and deﬁne the job
tasks in the basic courses.




                        An Evaluation of TSA’s Screener Training and Methods of Testing                                            Page 15
               performance to help guide TSA’s expectations of screener performance during
               training and testing.

               Another study TSA did not incorporate in its analysis is the July 2003 Passenger
               Screener Performance Improvement Study, which identiﬁed causes for and
               solutions to the screener failure rate on operational tests. The study identiﬁed
               over 100 recommendations that address environmental and motivational factors,
               as well as inadequate screener knowledge and skills. Because it examined the
               performance gaps of passenger checkpoint screeners who already completed
               basic training, the training-related solutions involve recurrent training. Some
               recommended solutions, however, also have implications for basic training. For
               example, one solution involves providing screeners with guidance on optimal
               on-screen bag search techniques, something that would be useful when screeners
               are ﬁrst learning X-ray image interpretation. This solution was not included in the
               December 2003 screener curriculum revision.

               WPT recognizes that completing and applying an analysis to frame the screener
               basic training courses is overdue. A December 2003 study by WPT’s Performance
               Consulting team recommended that WPT complete an analysis for the basic
               screener training program. This had not been done at the time of our evaluation.
               Since the existing work products that support the analysis focus mainly on
               passenger checkpoint screeners, it is important for WPT to extend the analysis
               to checked baggage screeners. A complete analysis will help TSA ensure that
               the basic screener training program includes the appropriate content and, by
               extension, leads to organizational improvement.

               We recommend that the TSA Administrator:

               Recommendation 1: Complete the analysis for basic screener classroom training,
               both for passenger checkpoint and checked baggage screeners, and institute
               mechanisms to ensure that staff update the analysis at least annually and apply the
               results to curriculum revisions.

          Design

               The design phase involves transforming the screener training needs identiﬁed
               in the analysis phase into course objectives, strategies, and curricula. Partly




Page 16                   An Evaluation of TSA’s Screener Training and Methods of Testing
    because TSA did not use a systematic training analysis to guide the revised 

    design, the December 2003 design for the passenger checkpoint and checked
    baggage classroom courses did not fully meet basic training needs. The revisions
    improved previous basic course versions by updating the training content to
    reﬂect the latest version of TSA’s SOPs and Aviation Operations Directives,
    and the revised content provided technically accurate instruction for all the
    TSA-approved screening methods. However, important knowledge and skills
    outlined in the Skills Standards for Transportation Security Screeners were not
    included in the course objectives. Instructional strategies, such as the explicit
    presentation of course objectives and the effective use of training materials and
    tools, were not fully developed. Further, the test design for both the written and
    practical examinations did not comprehensively address course objectives; written
    examinations require further validation; and practical examinations require greater
    standardization. Therefore, although the December 2003 revisions improved the
    course design, TSA should continue the revision process.

    Some Standard Knowledge and Skills Identiﬁed as Important for Transportation
    Security Screeners Were Missing from the Course Curriculum

    Neither the passenger checkpoint nor checked baggage curriculum covered
    the full scope of the occupational knowledge and technical skills necessary to
    effectively perform screening functions. In addition, certain lessons in each did
    not engage subject matter in appropriate depth and were, therefore, incomplete.

    TSA identiﬁed occupational knowledge and technical skills that screeners should
    develop in the Skills Standards for Transportation Security Screeners and the
    screening SOPs. There is no requirement to teach all of these skills, e.g., heart
    attack recognition, in basic training. However, the basic courses should prepare
    screeners to perform routine duties. For the most part, the classroom courses
    address TSA-approved screening functions, background knowledge about TSA,
    and customer service skills. The courses do not address all of the skills that the
    Skills Standards and SOPs suggest new screeners need, such as:

          • 	 Reading airline tickets and baggage tags when screening selectees who
              require special attention;
          • 	 Handling deadly or dangerous weapons and objects;




An Evaluation of TSA’s Screener Training and Methods of Testing		               Page 17
                                 •     Recognizing acceptable forms of identiﬁcation for travelers claiming a 

                                       right to bring weapons on aircraft, such as Law Enforcement Ofﬁcers
                                       (LEOs); and
                                 •     Repacking baggage after searches.

                            While some of these skills could be taught during OJT, there is no requirement
                            that they be covered then.

                            Both the passenger checkpoint and checked baggage SOPs identify the ability to
                            recognize artfully concealed threats as a requirement for the successful execution
                            of all screening functions. However, while the lecture presentations for all of the
                            passenger checkpoint and checked baggage screening functions contained some
                            discussion of artful concealment, the curricula required very little practice and
                            testing. Only the course training on X-ray operation required all screeners to
                            receive practice and skills testing in the identiﬁcation of artfully concealed threats,
                            such as a Lockerbie-type radio bomb. For other passenger checkpoint screening
                            functions, such as physical search of property and hand-wanding, most practice
                            scenarios did not involve artfully concealed threats, and thus only a few screeners
                            received hands-on practice identifying them. The checked baggage curriculum
                            required no practice or skills testing of screeners in identifying artfully concealed
                            items.

                            The checked baggage curriculum omitted other knowledge and skills critical
                            to screeners. Although checked baggage screeners learn during classroom
                            training to interpret EDS images to recognize common objects, such as food
                            items and clothing, the lesson does not train screeners to recognize threat items,
                            such as Improvised Explosive Devices (IEDs). Unlike x-ray machines, EDS
                            machines identify threat items for additional screening, without screener image
                            interpretation. However, screeners who can interpret EDS images to identify IEDs
                            can take the safety precaution of holding threats in the explosive-resistant EDS
                            tunnels,11 thereby avoiding triggering explosive or incendiary bag contents when
                            the luggage is ejected from the EDS machine or receives additional screening.
                            TSA provides practice in EDS IED recognition during on-the-job training. TSA


11
   Unlike the Passenger Checkpoint SOPs, the Checked Baggage SOPs do not explicitly require threat items to be held in the EDS tunnel
for further examination by a supervisor and law enforcement ofﬁcer.




Page 18                                   An Evaluation of TSA’s Screener Training and Methods of Testing
                                should take the opportunity to begin this training in the classroom because 

                                classroom training is structured and standardized.

                                Another skill identiﬁed by TSA as critical to screeners is the handling and
                                screening of animals and cages. Many airlines permit house pets to be checked as
                                baggage. This subject, however, is omitted from the checked baggage curriculum.
                                Because live animals cannot be screened using EDS machines, checked baggage
                                screeners must know how to handle and physically search animals and their cages
                                for prohibited items.

                                Also absent from the passenger checkpoint curriculum, and reviewed in a cursory
                                manner in the checked baggage curriculum, was discussion, demonstration, and
                                practice of proper lifting techniques. During FY 2003, TSA employees’ injury
                                and illness rate (19.4%) and lost time rate (8.9%) were the highest in the federal
                                government.12 Although TSA may provide some instruction on proper lifting
                                techniques during recurrent and on-the-job training, not all screeners received the
                                training. A review of training records at one airport showed that just over half of
                                active screeners had documented training in proper lifting techniques. TSA should
                                provide thorough training, including practice, before screeners are required to lift
                                baggage. Proper lifting skills are critical to both checked baggage and passenger
                                screeners and are necessary to avoid injury and limit time away from the job.

                                Some occupational knowledge and technical skills identiﬁed by TSA as important
                                to passenger checkpoint and checked baggage screeners were addressed
                                perfunctorily or incompletely in the curricula. While classroom training materials
                                included learning objectives on these topics, they devoted little pertinent
                                content. For example, while both courses had “Screener Awareness” modules
                                that addressed safety-related issues, little information was provided on how to
                                identify hazardous substances in bags or respond to contact with toxic items in
                                bag searches. The safety information put forward in the course was also devoid of
                                any discussion of pathogens like HIV and hepatitis that may be communicated to
                                screeners through contact with needles or bodily ﬂuids in or on baggage.

                                In addition, ETD machine operation training in the passenger checkpoint course
                                lacked sufﬁcient depth. Unlike the basic checked baggage course, the passenger

12
     Federal Illness and Injury Statistics for FY 2003, OSHA.




                           An Evaluation of TSA’s Screener Training and Methods of Testing                  Page 19
          checkpoint course did not include training on ETD component familiarization, 

          maintenance and alarm documentation requirements, start-up and shut-down
          procedures, calibration/veriﬁcation procedures, and shift maintenance. Also,
          the course abbreviated the training on ETD decontamination procedures and
          machine errors and corrective actions. While the responsibility for performing
          these important ETD operations has yet to be plainly designated by TSA, some
          of the associated tasks are related to basic machine operation and should be
          taught to rank and ﬁle screeners. Curricular shortcomings in this area could
          create confusion and lead to the improper use of ETD machines, thus increasing
          aviation security system vulnerability. At a minimum, the limited ETD training for
          passenger checkpoint screeners needlessly burdens screener supervisors with the
          tasks and creates the opportunity for screening delays.

          Checked Baggage Course Objectives Were Not Clearly Presented

          Course objectives specify what students should be able to do in order to be
          considered competent. Because they provide students the means to organize their
          efforts toward acquiring certain knowledge and skills and accomplishing desired
          tasks, course objectives should be stated clearly at the beginning of each module
          and lesson. Moreover, by referring to training curricula that clearly identify the
          results that students should attain, instructors can more easily determine whether
          students have gained the appropriate knowledge and skills.

          The coverage of identiﬁed instructional objectives was exceptionally thorough
          in the passenger checkpoint curriculum. In line with model training standards,
          the passenger checkpoint curriculum explicitly identiﬁed speciﬁc objectives for
          all 17 modules of the training program. The curriculum materials addressed each
          objective in the content for that section and presented a review of the objectives at
          the end of each module.

          The checked baggage curriculum, however, rarely made course and lesson
          expectations evident to students. Care was not taken in the design of the
          curriculum to ensure that learning objectives were presented to students at the
          beginning of the lessons. For the most part, course materials only made provision
          for the verbal presentation of lesson objectives to students, rather than, for
          example, by presentation on a slide at the beginning of a module. Of 11 modules
          and lessons presented during each checked baggage course, only one clearly




Page 20              An Evaluation of TSA’s Screener Training and Methods of Testing
                               speciﬁed the objectives to students at the beginning of the lessons. Objective 

                               review sections were typically included at the end of the modules and lessons. 


                               Testing Issues Remained
	

                               a. Written Examinations

                               As planned in June 2003, TSA revamped all checked baggage quizzes and
                               examinations to prevent duplication of questions and reviewed the updated
                               materials to ensure test validity.13 By cutting and revising quizzes, TSA eliminated
                               rehearsal of examination questions. Also, for the new, December 2003 written
                               examinations, TSA reviewed the content for validity and eliminated simplistic
                               questions. Nevertheless, testing issues remained.

                               First, each of the checked baggage course’s three 25-question, multiple-choice
                               examinations was administered immediately following relevant classroom
                               modules. As a result, they had limited ability to assess students’ long-term
                               retention. Second, some of the test questions did not have a precise match to the
                               lessons. Some “incorrect” answers were factually correct,14 and some “correct”
                               answers did not reﬂect what instructors emphasized to screeners. Ambiguous
                               questions caused screener confusion and blurred the distinction between screeners
                               who retained the lesson material and those that did not.




13
   For a test to be validated, analysis of related evidence and theory should support the proposed interpretation of the test scores; that is, the 

test measures what it is intended to measure.
	
14
   TSA elected to use “best answer” format, in which more than one answer may be correct for some questions. Only one answer, however, 

is the best correct answer in terms of degree of correctness. 





                          An Evaluation of TSA’s Screener Training and Methods of Testing                                                Page 21
          Also, several questions, which should not be used during future testing, did not
          correspond to information presented in course materials.




Page 22              An Evaluation of TSA’s Screener Training and Methods of Testing
                                Instead of a series of written examinations, the basic passenger checkpoint course
                                had a single, 78-question multiple-choice test. Administered at the course’s
                                conclusion, after screeners had signiﬁcant time to practice and study the course
                                material, this test provided a better assessment of screeners’ retention. In addition,
                                passenger checkpoint test questions were generally challenging without being
                                ambiguous or misleading.

                                Unfortunately, the written exams for both the passenger checkpoint and checked
                                baggage courses were unvaried, rendering them vulnerable to compromise. The
                                questions on the exams were always presented to test takers in the same sequence
                                and TSA had no other versions of the exams to issue in the event that answers
                                were leaked. Staff from TSA’s Standards, Testing, and Certiﬁcation division said
                                that alternate exams have been prepared for current basic screener courses should
                                test answers from the primary version of an exam be inappropriately disclosed.

                                Finally, neither the passenger checkpoint course nor checked baggage course
                                material had post-test review sessions. Instructors could have used post-test
                                reviews to address misunderstandings identiﬁed by the testing. Instead, screeners
                                who failed to answer questions correctly on the written examination may have
                                carried their associated misperceptions to the workplace. While subsequent
                                training in an OJT setting may address those misconceptions, OJT cannot be
                                relied on to discover or remedy them before they have become entrenched.



15
     TSA did not pilot test the checked baggage course written examinations before their release.




                           An Evaluation of TSA’s Screener Training and Methods of Testing                    Page 23
          b. Practical Demonstration of Proﬁciency Evaluations

          Following initial classroom training, students perform a practical demonstration
          of their skills and ability to perform basic screening functions. The administration
          of practical skills tests for checked baggage was inconsistent. Test procedures for
          instructor evaluations did not provide sufﬁcient detail on assessing demonstrated
          tasks. The brevity of the test administrator guidelines fostered broad instructor
          discretion. Practical demonstration test materials included a list of tasks students
          were to demonstrate, but did not provide a sequenced list of steps that must be
          executed for a student to be credited with successfully performing a given task.
          For example, the 100% Checked Baggage practical test required instructors to
          give screeners a passing or failing mark for “General ETD Sampling Procedures/
          Sampling Environment (tables, lifting)” and “General ETD Sampling Procedures/
          Cross-Contamination.” With the components of these tasks undeﬁned, instructors
          gave some screeners passing marks even though they failed to sample and
          decontaminate the screening table, a step fundamental to both tasks. Further
          undermining uniformity, the test guidelines for practical demonstrations of ETD-
          swiping and physical inspections of luggage did not provide for standardized test
          bags and contents.

          The passenger checkpoint practical skills testing showed similar weaknesses.
          The absence of test administration instructions and detailed guidance on how
          to assess performance of screening tasks permitted a subjective evaluation.
          Important information about appropriate test scenarios and evaluative criteria was
          missing from the practical assessment framework. For the walk-through metal
          detector practical test, for example, students screened widely varying numbers of
          passengers, and whether the passengers exhibited threat behavior was arbitrary
          and inconsistent for each test. Throughout the practical exams, students were
          required to discuss rather than demonstrate alarm resolution, even when sufﬁcient
          props were available to enable realistic demonstration. Furthermore, instructors
          were not cautioned against coaching students during the evaluation.




Page 24              An Evaluation of TSA’s Screener Training and Methods of Testing
    Methods of Testing Failed to Measure Adequately Whether Some Objectives 

    Were Met

    The curriculum for passenger checkpoint and checked baggage screeners did not
    properly assess student comprehension on some areas of knowledge and skills
    relevant to screening.

    TSA checked baggage course written examinations and practical demonstrations
    of proﬁciency were not structured to test trainees on all key learning objectives.
    Checked baggage screeners were not tested on their familiarity with IED
    components and conﬁgurations, knowledge of safety and maintenance reporting
    and documentation requirements, customer service skills, or general familiarity
    with airports and security systems. While much of this knowledge and many
    related skills may be addressed during OJT, guidelines do not call for testing in
    any of these areas after completion of OJT.

    Similarly, when considered as a whole, the series of examinations administered
    to screeners following the passenger checkpoint classroom training did not
    test students on several important objectives and necessary job knowledge and
    skills presented in the curriculum. For example, students’ knowledge of the
    different types of explosives, situations when full-body and limited pat-downs are
    required, screening procedures for animals, screening procedures for persons with
    prosthetics, communication with and information about people with disabilities,
    passenger rights during screening, and the legal basis for the same, were not
    formally tested. Guidelines for the OJT portion of basic screener training do not
    call for testing in any of these areas, either.

    Materials and Tools Needed to Support Training Were Inadequate

    Interesting and effective training materials and tools are necessary to supplement
    good training techniques. They reinforce learning, bring variety to the session,
    allow learners to use more than one sense to increase learning, provide take-home
    references, and encourage active participation during the instructional process.

    The resources and support materials devoted to the checked baggage course were
    inadequate. Basic learning aids such as training manuals and slide presentation
    summaries were not provided to students. Students could have beneﬁted from




An Evaluation of TSA’s Screener Training and Methods of Testing                 Page 25
          the use of these materials. They permit students to access information at a later
          time, absorb information at their own pace, and eliminate the need to take notes
          frantically. Resource and support shortcomings also were evident in multimedia
          presentations included in the course. In one particularly notable instance, a video
          presented during the customer service portion of the course was produced for
          another audience and did not address the customer service issues associated with
          checked baggage screening. The materials for the passenger checkpoint course
          were somewhat better. Although the course did not offer a training manual for
          students, students received procedure summary sheets for each screening function
          during training.

          Students enrolled in basic screener courses were not permitted to remove
          course materials from the classroom. This practice limited student initiative to
          pursue learning independently and reduced opportunities to reinforce classroom
          instruction. Furthermore, because of scheduling constraints on studying in class
          before the examinations, students’ inability to refer to course materials outside
          of class may have adversely affected test performance. In April 2004, TSA
          introduced new training manuals and materials for the new DFS course. TSA also
          adopted a new policy permitting students enrolled in the DFS course to use these
          materials in class and for individual study after hours.

          TSA also recognized the need to improve another important training tool—image
          recognition software used during the passenger checkpoint screener basic
          training. X-ray object recognition is arguably the most challenging aspect of
          passenger screening; training in this area is essential to screener job preparedness.
          To cultivate skill in this arena, the basic passenger screener course employed
          a computer-based training (CBT) tool. The original Smart Systems CBT tool
          permitted students to choose from simulated representations of all three models
          of X-ray machines in use at commercial airport screening stations in the U.S.
          Students using Smart System would make judgments about whether X-ray images
          of bags presented on their screens contained obvious threats, possible threats,
          or no threats. Feedback on student judgments was provided at the end of an
          image review session. Unfortunately, this system had several ﬂaws. First, threats
          and bags were often repeated, allowing students to memorize them. While this
          repetitiveness reinforced students’ image recall, it reduced the emphasis that could
          have been placed on critical review and evaluation of new images with novel
          threat presentations. Second, the software regarded certain items as threats that are




Page 26              An Evaluation of TSA’s Screener Training and Methods of Testing
    not currently regarded as threats in the U.S. And ﬁnally, the Smart System CBT
	
    simulator offered images that were of inferior quality when compared to those
    presented on actual X-ray machines.

    In response to these concerns, TSA is now using a more advanced image training
    tool, X-Ray Tutor. This application has substantially more training images
    (14.4 million) and adapts to user object recognition capabilities based on past
    performance. In addition to customized training, X-Ray Tutor provides users
    with instant feedback on decisions to clear or further examine bags. Unlike the
    former CBT feedback mechanism, which presented information on the accuracy
    of screener judgments at the end of training sessions, X-Ray Tutor software
    educates students on decision-making failures while their rationale for clearing or
    further examining a bag is still fresh in their minds. The use of X-Ray Tutor also
    represents a major improvement in CBT because it is accompanied by a formal X-
    ray image interpretation training module, which includes a lesson on threat object
    pattern recognition, module objectives, a summary, and review test.

    For all current and future basic screener classroom curricula, we recommend that
    the TSA Administrator:

    Recommendation 2: Ensure that passenger checkpoint and checked baggage
    basic course objectives (1) address the knowledge and skills necessary for routine
    screener performance, as identiﬁed by the most current task analysis, and (2) are
    presented to students at the beginning of course lessons.

    Recommendation 3: Further revise written examinations and administration
    procedures, including the following steps:

          • 	 Ensure all course objectives receive an appropriate assessment of student
              learning;
          • 	 Thoroughly validate tests, including passing scores, if they are to be used
              for selection decisions;
          • 	 Pilot-test examination questions to ensure their clarity and objectivity;
          • 	 Schedule tests later during the course to enhance their ability to measure
              students’ long-term retention of course material; and
          • 	 Incorporate post-test reviews to prevent screener misconceptions from
              being carried into the workplace.




An Evaluation of TSA’s Screener Training and Methods of Testing		                 Page 27
                 Recommendation 4: Develop and distribute detailed test administration 

                 guidelines for Practical Demonstration of Proﬁciency Evaluations with the aim of
                 increasing standardization.

                 Recommendation 5: Distribute effective training materials to reinforce learning
                 and allow for individual study outside the classroom.

            Implementation

                 The implementation phase of training development focuses on the delivery of a
                 training program. Improvements that TSA should make to the implementation of
                 the basic screener classroom training include: reinstating the OJT requirement
                 for newly hired instructors, requiring instructors to undergo annual recertiﬁcation
                 testing, analyzing the cost and feasibility of establishing designated training sites,
                 increasing the use of instructional methods other than lecture, ceasing coaching of
                 students during practical skills testing, and ensuring leadership within the screener
                 workforce diligently monitor screeners.

                 Instructor Requirements Do Not Mandate Additional Practical Experience or
                 Annual Recertiﬁcation

                 No person is authorized to instruct basic screener training, excluding OJT,
                 unless that person is an approved instructor who has been certiﬁed by TSA.
                 Currently, Lockheed Martin provides TSA with contracted instructors for both
                 passenger checkpoint and checked baggage classroom training. In order to teach
                 basic screener courses, contracted instructors are required to meet the following
                 qualiﬁcations:

                     • 	 Be a graduate of a formalized instructor-training program, such as
                         American Society for Training and Development or military/federal
                         instructor training;
                     • 	 Prior to instructing, attend a basic passenger or checked baggage
                         classroom training course and pass any courses they will be teaching;
                     • 	 Observe and assist a qualiﬁed instructor teaching the same course they
                         will be teaching; and




Page 28		                   An Evaluation of TSA’s Screener Training and Methods of Testing
         •     Successfully demonstrate the required qualiﬁcations with a one-hour 

               “practice teach” for a panel of TSA or contractor master instructors and a
               quality assurance representative.

    In May 2003, TSA added another requirement. After attending classroom training,
    newly hired contracted instructors were required to observe live screening
    operations for the course they instruct—three days of passenger OJT or two
    days of checked baggage OJT. In December 2003, however, TSA cancelled
    this instructor requirement due to the salary and travel costs. In addition, some
    instructors complained that the instructor OJT requirement had limited value
    because, as contractors, they were restricted to passive observance of the
    passenger checkpoints and checked baggage stations, rather than performance of
    screening duties.

    Despite the cost and practical limitations of this OJT requirement, it is an
    important step in ensuring that instructors have the experience necessary to train
    newly hired screeners on screening equipment and procedures. The observations
    included in this modiﬁed OJT allow instructors to learn how the security
    screening process operates under real airport conditions, with local variations,
    and to learn from screeners, lead screeners, supervisory screeners, and screening
    managers about their experiences on the job. TSA said that it has plans to
    develop a new OJT program for new instructors that is “more meaningful,” but
    still includes observation of screening operations and dedicated time with lead
    and supervisory screeners. The additional experience gained during OJT would
    better equip instructors with the knowledge and skills to lecture conﬁdently and
    successfully on screening procedures, to demonstrate screening skills, and to
    answer questions posed by students during classroom training.

    Instructors are not currently required to undergo annual recertiﬁcation testing. By
    May 1, 2004, 170 contract instructors completed training on the new DFS course.
    Each of these instructors was recertiﬁed after passing three written tests with a
    score of 70% or better and demonstrating multiple practical skills. Instructors
    who did not attend the DFS training, however, have not been recertiﬁed. While
    the instructors teaching the courses appeared competent, all instructors, like
    security screeners, should undergo an annual recertiﬁcation to determine their
    mastery of the changing screening requirements and ability to continue to
    perform successfully as a security screening instructor. Although TSA’s Ofﬁce




An Evaluation of TSA’s Screener Training and Methods of Testing                   Page 29
                              of Evaluation and Quality Assurance (EQA) conducts quality assurance checks 

                              by evaluating instructors, debrieﬁng them, and removing any instructor deemed
                              incompetent, the staff dedicated to conducting these checks is small; therefore, the
                              number of quality assurance site visits and instructor evaluations is very limited.
                              Stafﬁng within TSA’s EQA division permits visits to only ﬁve percent of training
                              sites on a monthly basis. Annual recertiﬁcation of instructors could serve as an
                              additional monitoring and quality control element in verifying current competence
                              of instructors and ensuring that each has maintained the necessary knowledge and
                              skills. It also allows instructors to keep up with the changes and developments
                              made to security screening.

                              In June 2003, an Aviation Operations directive was issued to FSDs giving
                              guidance on how to nominate staff to attend training to become voluntary TSA
                              approved instructors (TAI). In addition to the contract instructors who are TAIs,
                              TSA employees, including screeners, may become TAIs as an additional duty.
                              TSA intends to have these TAIs train fellow staff on-site in order to reduce the
                              need for contract instructors to travel to speciﬁc ﬁeld locations when additional
                              instruction is needed or new training requirements arise.16 Thus far, TSA has
                              certiﬁed approximately 700 employees as TAIs. While TSA-employee TAIs were
                              initially used for recurrent and some cross-training, TSA began to permit them to
                              train new hires on April 12, 2004. As of May 30, 2004, FSDs had the option of
                              requesting full support, partial support, or no support from contracted instructors,
                              and could do so on a class by class basis. Although TSA still permits the use of
                              contracted instructors, TSA expects that the use of TSA-employee TAIs to train
                              newly hired screeners will increase over time.

                              Using TSA employees as TAIs not only will minimize dependency on contracted
                              instructors and increase the ﬂexibility and control that each FSD has over
                              training of their local screeners, but also it will leverage local experience. TAIs
                              who are drawn from the screener workforce have direct experience working
                              within aviation security, are familiar with screening procedures and equipment,
                              are required to undergo an annual recertiﬁcation test, and are required to take

16
   In order to become a TAI, an individual must have a current or prior instructor certiﬁcation by a recognized training and development
organization, or have had at least two years of experience as an instructor. In addition, TAIs must have successfully completed the course
of instruction they will be teaching and demonstrate instructional skills by assisting a TAI in classroom instruction and monitoring actual
classroom instruction.




Page 30                                      An Evaluation of TSA’s Screener Training and Methods of Testing
    training on a continual basis. As a result, TAIs will be able to bring their own
    experiences into the classroom and address situations unique to their local
    airports. While TSA aims eventually to use TSA-employee TAIs to conduct new
    hire and cross-training on an exclusive basis, this most likely will not occur in
    the near future. All instructors, contracted or employed by TSA, should receive
    additional experience through OJT and be required to demonstrate their continued
    competence as a security screener instructor through annual recertiﬁcation testing.

    Limited Access to Screening Equipment and Training Aids Adversely Impacted
    Training

    TSA currently conducts classroom training at airports where a large number of
    newly hired screeners await training. Newly hired screeners located at airports
    where training is not taking place travel to locations where classroom training is
    being conducted. Classroom training is delivered at a variety of different locales,
    including local airports, TSA ofﬁce buildings, and hotels within the vicinity of
    the airports. Many of these training settings, however, are not dedicated training
    spaces. As a result, access to screening equipment for demonstration and practice
    is extremely limited at best, and sometimes not available at all.

    Screening equipment is furnished for classroom instruction by TSA at local
    airports or is shipped to the training sites by Lockheed Martin. Both of these
    options pose difﬁculties, however, as screening equipment at airports is often
    in use and unavailable, and shipping equipment to training sites is difﬁcult
    logistically. Due to size, it is not possible to ship or move some screening
    equipment, such as EDS machines, to a training facility. While TSA has some
    EDS machine simulators located at some training locations, it does not have
    enough simulators to equip all training locations.

    In addition to screening equipment, training aids were not always available at the
    training locations. These objects include props such as luggage, prohibited items
    such as knives or scissors, permitted items that may conceal a prohibited item,
    such as a camera or book, and clothing. Training aids, critical to hands-on practice
    and role-playing, were often drawn from the instructors’ personal items and were
    too few to provide all students with realistic practice opportunities.




An Evaluation of TSA’s Screener Training and Methods of Testing                 Page 31
                             Easier access to actual screening equipment, simulators, and training aids
                             would ensure that instructors have the necessary tools to demonstrate screening
                             procedures and students have the opportunity to practice new skills. Through
                             demonstration and hands-on practice, students better comprehend, master, and
                             retain the necessary knowledge and skills required to perform successfully as a
                             security screener.

                             Because it is logistically difﬁcult to make screening equipment, simulators, and
                             training aids available at each training location, TSA should analyze the cost and
                             feasibility of establishing fewer designated training locations or regional training
                             centers at which these items are permanently located and readily available.
                             Ideally, these designated training locations would have multiple mock passenger
                             checkpoints and checked baggage screening stations to facilitate role-playing and
                             mock realistic situations. Designated training locations would contribute to the
                             standardization of screener training.

                             Delivery of Checked Baggage Screener Basic Training Focused Too Heavily on
                             Lecture

                             In the delivery of courses, instructors primarily lectured to convey the training
                             content to newly hired screeners. This was especially true for the checked
                             baggage courses. During these courses, lecture was used for an estimated 95%
                             of the 40 hours of training, and instructors did not use the majority of practice
                             activities suggested in the curriculum.

                             While lecture is an instructional method by which training is commonly delivered,
                             it can be among the least effective of methods. Research on students exposed to
                             lectures indicates that they were attentive and readily assimilated lecture material
                             during the ﬁrst 10-20 minutes, but that attention dropped dramatically thereafter.17
                             In order to enhance student attention and retention, lectures should be punctuated
                             with periodic activities.

                             In addition to maintaining attention, the delivery methods of demonstration,
                             hands-on practice, and role-playing can be much more effective in screeners’

17
  Johnston, Susan and Cooper, Jim, “Quick-thinks: Active-thinking Tasks in Lecture Classes and Televised Instruction,” Cooperative
Learning and Colleges Teaching newsletter, Vol. 8, no. 1, Fall 1997.




Page 32                                    An Evaluation of TSA’s Screener Training and Methods of Testing
    comprehension and retention of newly learned knowledge and skills. It is common
    knowledge that some adults are visual learners, some are auditory learners, and
    some are tactile learners, while others learn best through a combination of these.
    Demonstration, hands-on practice, and role-playing engage several senses: sight,
    hearing, and touch. By using alternative delivery methods in addition to lecture,
    each student’s favored learning medium can be used during the course. Finally,
    students are often receptive to ideas from lecture when they are reintroduced
    during demonstration and practical exercises.

    During the checked baggage courses, different activities that could be performed
    with students were presented in the instructor’s manuals. Very few of these
    activities were conducted. Although some of these activities did not provide
    screeners with an opportunity to practice real on-the-job skills, others were
    of high quality and provided an opportunity for skills practice, such as ETD
    decontamination procedures. Of 46 different activities provided to instructors in
    two checked baggage courses, seven and four were fully conducted, respectively.

       Figure 2. Checked Baggage Screener Basic Curriculum Activities Conducted

                                               Course 1 Activities    Course 2 Activities
                 Lesson Title
                                              Provided/Conducted     Provided/Conducted
      TSA Overview                                    5/3                     5/0
      Customer Service                                5/0                     5/0
      Persons With Disabilities                       5/2                     5/1
      Screener Awareness                              2/0                     2/0
      Improvised Explosive Devices                    0/0                     0/0
      EDS Overview                                    0/0                     0/0
      EDS Common Object Recognition                   0/0                     1/0
      EDS SP Operations                               1/1                     0/0
      EDS Operational Procedures                      1/0                     1/0
      Barringer IONSCAN 400B                         15/0                    15/1
      100% Checked Baggage                           12/1                    12/2
      Total                                      46/7 (15.2%)            46/4 (8.6%)



    The small amount of demonstration and hands-on practice in the checked baggage
    courses was in large part due to limited access to checked baggage screening
    equipment. Other activities that did not require screening equipment, however,




An Evaluation of TSA’s Screener Training and Methods of Testing                      Page 33
                             were also not conducted. For example, activities that involved demonstrating
                             correct methods of sampling for traces of explosives or completing maintenance
                             forms and logbooks were not conducted. Instructors also did not use activities
                             identiﬁed in the curriculum to practice proper customer service behavior.

                             While lecture was still the primary method of delivery during the passenger
                             checkpoint course, alternate methods of delivery were used more frequently than
                             in the checked baggage screener basic classroom courses. Passenger checkpoint
                             course instructors performed many demonstrations and conducted multiple
                             activities in which all students participated.18 Passenger checkpoint students
                             even had the opportunity to visit a closed passenger screening checkpoint at an
                             airport prior to written and practical skill examinations. Instructors also chose to
                             complete additional activities that provided opportunities to model or practice
                             proper customer service behavior in situations pertinent to passenger checkpoint
                             screening. These demonstrations and activities in the passenger checkpoint
                             course not only helped hold students’ attention and aided in their comprehension
                             of the new knowledge and skills presented to them, but also gave the students
                             conﬁdence that they could perform successfully as screeners.

                             Although lecture is the most common means of delivering large quantities of
                             information, a variety of delivery methods should be used to ensure that all
                             students have full opportunity to comprehend, master, and retain the knowledge
                             and skills necessary to perform successfully as a screener. While OJT provides
                             a signiﬁcant amount of demonstration and hands-on practice, demonstration and
                             hands-on practice within the classroom are needed to prepare student for the
                             practical examinations given during classroom training. Moreover, practice in
                             the risk-free, controlled classroom environment should help screeners make the
                             transition from classroom training to OJT, where screeners experience real-world
                             job conditions for the ﬁrst time.

                             Administration of Practical Skills Testing Was Not Standardized

                             For both the passenger checkpoint and checked baggage courses, instructors
                             clearly communicated written test procedures by reading from a TSA-approved

18
   The greater number of demonstration and activities performed during the passenger checkpoint training was in part due to easier access
to real or mock passenger checkpoint screening equipment.




Page 34                                     An Evaluation of TSA’s Screener Training and Methods of Testing
    test administration script. There was, however, no standardization in the 

    administration of the practical skills tests, otherwise known as the Practical
    Demonstration of Proﬁciency Evaluations.

    Proper assessment of individual skills in performing screening tasks requires
    the independent exercise of these tasks without assistance. However, instructors
    coached students through the practical skills tests. The level to which students
    were coached varied depending on the instructor and the student undergoing the
    test. Practical Demonstration of Proﬁciency Evaluation Test Procedures given to
    instructors, which provide a brief overview and general guidance in conducting
    practical skills tests, did not address whether instructors were permitted to
    provide coaching. However, according to Practical Demonstration of Proﬁciency
    Evaluation Instructions that are given to students, if a student asks the instructor a
    question during the evaluation, the instructor may only respond by informing the
    student to “act in accordance with your training.”

    While the associated scoring was pass/fail, coaching during practical tests may
    have offered an unfair advantage to some students. Also, coaching prevented
    some students from fully demonstrating on their own that they have the skills
    to perform successfully as a screener. It is imperative that students demonstrate
    their abilities within a controlled environment before proceeding to OJT, where
    they will be conducting actual screening in a live environment with multiple
    distractions. As a result, all coaching during the Practical Demonstration of
    Proﬁciency Evaluations should cease.

    In addition, suitable testing environments were not established for the
    administration of practical skills evaluations and contributed to the lack of
    standardization. Testing took place in one room where students could watch other
    students take the skills test before them. This enabled those students waiting to
    take the test to memorize how others demonstrated their skills using precisely
    the same scenarios they would encounter. By placing students in an environment
    where they can memorize and repeat what others have done before them, TSA lost
    the opportunity to challenge students and assess whether they can successfully
    perform screening functions independently.




An Evaluation of TSA’s Screener Training and Methods of Testing                    Page 35
          Security Supervision Does Not Reinforce Basic Screener Training

          No matter how successful training is in establishing the necessary basic
          knowledge and skills to perform screening functions, it is crucial that this
          knowledge and these skills are continually reinforced. A screener’s work is
          often monotonous and requires repeated application of careful methods and
          strict procedures. The repetitiveness of screener tasks can have a physical toll
          on screeners that may result in short-cutting procedures or applying improper
          techniques. To avoid this, lead screeners, supervisory screeners, and screening
          managers must reinforce basic knowledge and skills learned in basic screener
          training by diligently observing screeners and immediately correcting negligent
          screening techniques and failure to adhere to SOPs.

          During some of our site visits, we observed poor supervision at passenger
          checkpoint and checked baggage screening stations. Lead screeners, supervisory
          screeners, and screening managers were not diligent in correcting screeners’
          lack of adherence to the SOPs and sloppy screening techniques. For example,
          when using ETD machines, screeners are trained on the use of speciﬁc sampling
          techniques for detecting trace explosives that include sampling in one direction.
          However, several screeners on the job used back-and-forth, circular, or zigzag
          sampling techniques. Also, several screeners positioned hand-held metal detectors
          at distances further from the body of a person than what has been prescribed
          and taught during basic training. These screening techniques can be corrected
          when pointed out to a screener. In addition, if screeners know that they are under
          constant supervisory observation, the screeners will be motivated to be more
          diligent and use precise and proper screening techniques on their own.

          Because screeners may not retain all of the procedures and proper techniques
          learned during basic screener training and their attentiveness may decrease over
          time, it is imperative that supervisors and managers within the screener workforce
          diligently observe screeners, correct identiﬁed deﬁciencies, and promote a
          positive team environment where every screener is comfortable speaking out
          when they observe peers performing incorrectly.

          For all current and future basic screener classroom curricula, we recommend that
          the TSA Administrator:




Page 36              An Evaluation of TSA’s Screener Training and Methods of Testing
                               Recommendation 6: Require all TSA approved instructors to complete an 

                               appropriate form of OJT prior to providing instruction and to undergo annual
                               recertiﬁcation testing.

                               Recommendation 7: Analyze the cost and feasibility of establishing designated
                               training sites where screening equipment, simulators, and training aids can be
                               permanently located and readily available to students.

                               Recommendation 8: Use alternatives to lectures more frequently during
                               classroom training to help maintain student attentiveness, contribute to the
                               comprehension and mastery of new knowledge and skills, and foster retention of
                               the material.

                               Recommendation 9: Cease all coaching of students during practical
                               demonstration of proﬁciency evaluations.

                               Recommendation 10: Ensure that leadership within the screener workforce
                               diligently monitors screeners and immediately corrects identiﬁed failures to
                               adhere to screening procedures and negligent screening techniques.


                     Evaluation

                               The evaluation phase helps ensure that training is relevant, effective, and achieves
                               training goals. While there are many types of evaluation to assess a training
                               program’s effectiveness, most models reframe Donald Kirkpatrick’s four levels
                               of evaluation: (1) student reaction to the course; (2) student learning during the
                               course; (3) student application of learning on the job; and (4) organizational
                               performance improvements from the training.19 WPT formally collected data on
                               student reactions and learning during the course, but WPT was still in the process
                               of identifying valid measurements to evaluate student application of learning
                               on the job and organizational improvements driven by training. WPT needs to
                               improve its efforts to ensure that its measurements of student learning during the
                               course are valid and comprehensive, too.


19
     Donald L. Kirkpatrick, Evaluating Training Programs, 1975.




                          An Evaluation of TSA’s Screener Training and Methods of Testing                  Page 37
          TSA has a system in place to collect and evaluate data on student reactions for 

          the basic screener classroom training. The primary beneﬁt of collecting this data
          is that negative student reactions reveal opportunities for improving the training.
          Instructors collected from all screeners a course evaluation form that asked 36
          questions, some open-ended, covering the appropriateness of course content,
          degree of instructor knowledge, realism of practical exercises, ease of use for
          computer-based training, self-assessment of screener learning, and other factors.
          The Evaluation Branch of WPT’s EQA scans the forms into the Automated Multi-
          Level Training Assessment Program (AMTAP) database to collect, analyze, and
          report results for course managers, EQA staff, and training coordinators. EQA
          staff monitor student responses in order to make course adjustments, such as
          sending Quality Assurance staff into the ﬁeld to review an instructor or course
          following screener complaints.

          For evaluations of student learning during the course, TSA conducts written
          and practical examinations to measure whether screeners fully meet course
          objectives. When we observed the December 2003 versions of passenger and
          checked baggage classroom training, ﬂaws in the examinations’ design and
          implementation, particularly for the checked baggage course, limited their
          precision in showing which screeners met the course objectives and which did
          not. First, both passenger and checked baggage courses contained objectives that
          were not tested in either of the written and practical examinations. Second, for the
          checked baggage written examinations:

              •   TSA did not pilot test the new examinations to identify and revise
                  ambiguous test questions.
              •




20




Page 38              An Evaluation of TSA’s Screener Training and Methods of Testing
                                 •     TSA administered the checked baggage examinations prior to practice 

                                       sessions. Several screeners complained that practice prior to the
                                       examinations would have better developed their understanding of the
                                       test material, much of which addressed performance of procedures that
                                       screeners had not yet performed.

                            Third, TSA did not standardize the instructor delivery, test scenarios, scoring
                            of performance steps, and test equipment and props available for the practical
                            examinations. Without a detailed, standardized process for the practical
                            examinations, instructors did not ensure that screeners demonstrated similar levels
                            of mastery of the course material. For some screeners but not others, instructors
                            simulated threat items and scenarios, provided coaching, or talked through
                            portions of the practical exam without requiring screeners to exhibit the steps.

                            Given these weaknesses in the written and practical examinations, we question
                            why TSA chose to use high-stakes tests without remediation in the absence
                            of a requirement to do so. The Standards for Educational and Psychological
                            Testing point out, “[t]he need for precision [in scoring tests] increases as the
                            consequences of decisions and interpretations grow in importance,” and “[t]he
                            probability of misclassiﬁcation will generally be relatively high for persons
                            with scores close to the cut points.” 21 TSA should consider resetting the passing
                            score to retain marginal screeners for remediation. This will reduce TSA’s risk
                            of terminating screeners, whose selection and training TSA has already ﬁnanced,
                            who may demonstrate acceptable performance with minor additional training and
                            more realistic, practical examinations. After all, at the end of classroom training,
                            screeners have 60 hours of OJT to continue to develop their knowledge and skills.
                            TSA should take the opportunity to identify screeners’ remediation needs for
                            supplemental training and testing during OJT. A new, April 2004 administration
                            guide for practical examinations shows that TSA is moving in this direction.

                            Since the purpose of the basic screener training program is to provide the
                            knowledge and skills necessary to screener on-the-job performance, evaluation of
                            how screeners apply their training on the job is another measurement WPT should
                            undertake. WPT’s EQA is planning such measurements that may involve direct

21
   American Educational Research Association, American Psychological Association, and National Council on Measurement in Education,
Standards for Educational and Psychological Testing, 1999, p. 50.




                       An Evaluation of TSA’s Screener Training and Methods of Testing                                     Page 39
                               observation of screener performance. While time-consuming and labor-intensive, 

                               direct observation should be informative.

                               Additionally, WPT is in the process of developing valid performance
                               measurements to apply in evaluations that assess whether screener training makes
                               a difference in TSA’s organizational performance. In November 2003, GAO
                               testiﬁed, “Our recent work on TSA’s passenger screening program showed that
                               although TSA has made numerous enhancements in passenger screening, it has
                               collected limited information on how effective these enhancements have been
                               in improving screeners’ ability to detect threat objects.”22 The same can be said
                               of checked baggage screening; the development of its training programs and
                               screener performance measurements trails the passenger screening program’s. To
                               date, generalizations about TSA’s organizational performance in threat detection
                               have been based on OIAPR and DHS OIG operational test results, which
                               involve only a small fraction of airports and screeners.23 The Passenger Screener
                               Performance Index, which TSA expects to compile by the end of FY 2004, will
                               use recertiﬁcation examination scores and other data to track screener ability
                               to detect prohibited items. In addition, EQA has discussed developing its own
                               measurements. Regardless of the measurements taken, TSA will have difﬁculty
                               isolating basic screener training as the cause of improved organizational results.
                               Ongoing changes to TSA’s recurrent training program, supervisory development,
                               equipment conﬁgurations, and other factors may also alter the frequency of
                               detection of items that threaten ﬂight safety. Nevertheless, it is important that TSA
                               measure organizational results. An absence of improvement in organizational
                               results may indicate a critical need to adjust the basic screener training program.

                               We recommend that the TSA Administrator:

                               Recommendation 11: Continue the development of evaluations that will relate
                               training to screener application of learning on the job and to organizational
                               results.




22
     Aviation Security: Efforts to Measure Effectives and Address Challenges, GAO-04-232T, November 5, 2003.
23
     For further discussion of operational testing, see page 55.




Page 40                                      An Evaluation of TSA’s Screener Training and Methods of Testing
            Basic Screener On-The-Job Training

                              ATSA requires both newly hired passenger checkpoint and checked baggage
                              screeners to complete 60 hours of OJT and an OJT examination upon completion
                              of classroom training. Until screeners meet these requirements, they may not
                              make independent judgments regarding whether passengers or property may
                              proceed without further screening. In February 2003, DOT OIG criticized TSA’s
                              OJT program for not requiring screeners “to demonstrate proﬁciency in all job
                              related tasks.”24 In response, TSA issued the Passenger Checkpoint OJT Interim
                              Guidance for Federal Transportation Security Screeners, Revision 2.0, and the
                              OJT Procedures (Interim Guidance) for Federal Checked Baggage Security
                              Screeners in April 2003. Both interim guidelines set requirements for screeners
                              to practice and demonstrate proﬁciency in screening techniques. TSA also has
                              assumed responsibility for administration of all OJT, which was contracted out
                              during the initial federalization of screeners in 2002.

                     Analysis

                              TSA has not yet completed analysis to identify the training needs and objectives
                              that screener OJT must address. In its current form, OJT primarily assists
                              screeners to increase their proﬁciency in screening techniques learned in
                              the classroom. However, OJT also should teach objectives that screeners do
                              not master during classroom instruction, such as following airport-speciﬁc
                              procedures. The interim OJT guidelines do not require screeners to meet some
                              objectives missed in the classroom, and they provide little instructional support
                              for OJT monitors to teach the new material. Extending analysis for basic screener
                              training to OJT should help TSA identify and address these gaps in a systematic
                              manner.

                              In both the passenger and checked baggage classroom training, instructors and
                              training materials identiﬁed skills not taught in the classroom that screeners need
                              to acquire at their airports during OJT. Examples of training deferred to OJT
                              include: how to work within airport-speciﬁc screening conﬁgurations, such as
                              inline systems; how to use the features and ensure proper operation of speciﬁc


24
     DOT OIG SC-2003-0026, Audit of Screener Security Program, February 28, 2003, p. 2.




                         An Evaluation of TSA’s Screener Training and Methods of Testing                   Page 41
                                models of X-ray and walk-through metal detector equipment; how to gain access
                                to checked baggage that is locked; how to verify ﬁrearms declaration forms in
                                checked baggage; how to apply airport-speciﬁc breach procedures; how to write
                                incident reports; and how to identify selectees for mandatory additional screening.

                                In some cases, however, the OJT guidelines left out the requirement for screeners
                                to learn the new skill. For example, after the classroom “Screener Awareness”
                                training introduced passenger screeners to the concept of reportable security
                                incidents, instructors were to note: “The quality of the report you write is critical
                                in resolving situations. In some instances, your report may be admitted as
                                evidence in a court of law. Many forms will exist at your screening locations and
                                you will learn more how to ﬁll them out during OJT.” However, report writing
                                is not addressed in the passenger OJT guidelines. Likewise, checked baggage
                                classroom training tells screeners to segregate the bags of selectees for the most
                                thorough type of search, but neither classroom training nor OJT instructs checked
                                baggage screeners on how to identify selectees. The checked baggage OJT
                                guidelines do not mention selectee screening at all.

                                In other cases, the OJT guidelines require practice of new skills but contain
                                no instructional materials to assist OJT monitors in teaching the skills to the
                                screener. For example, unlike checked baggage screeners, passenger screeners
                                do not receive model-speciﬁc training on screening equipment during classroom
                                training. The passenger classroom curriculum explicitly notes that screeners will
                                learn how to operate model-speciﬁc features of X-ray and walk-through metal
                                detector equipment during OJT, and the same is implied for the ETD. However,
                                the passenger OJT guidelines do not explain which model-speciﬁc features and
                                operations should be taught and how. Without such instructional support, it is
                                unlikely that OJT monitors, who have limited qualiﬁcations as instructors,25 can
                                provide standardized training on the new material to all screeners and ensure that
                                training objectives are met.

                                TSA needs to complete an analysis for basic screener training that takes into
                                account the hand-off of objectives from classroom training to OJT, and the scope
                                and level of proﬁciency required of screeners at the end of OJT. TSA should use
                                the analysis to guide the design of OJT instructional materials as well. Without

25
     For further discussion of OJT monitor qualiﬁcations, see page 47.




Page 42                                        An Evaluation of TSA’s Screener Training and Methods of Testing
      systematic analysis to drive curriculum revisions, gaps in basic screener training
      will persist.

Design

      TSA should: (1) design OJT training administration guidance to provide detailed
      lists of speciﬁc job tasks and establish function-speciﬁc time requirements for
      both newly hired and cross-trained screeners; (2) enforce policy regarding the
      OJT training image recognition test; and (3) require students to be tested on all
      key screening functions.

      On-The-Job Training Guidance Needs Improvement

      Each FSD was given the April 2003 OJT guidance to deﬁne the conduct of OJT
      for newly hired passenger checkpoint and checked baggage screeners. These
      documents, however, provide signiﬁcantly different guidance on the structure
      and content of OJT. The OJT guidance for passenger screening contains seven
      OJT checklists for each applicable passenger screening function and establishes
      a speciﬁc minimum amount of time to be spent on each function in order to
      complete OJT. All seven checklists cite speciﬁc tasks that must be executed in
      order for an OJT student to be credited with successfully completing screening
      functions. OJT monitors are to verify that each screener has sufﬁcient knowledge
      of these tasks, can perform the tasks with little intervention from the monitor, and
      ultimately can perform the tasks without any intervention from the monitor. In
      contrast, the OJT guidance for checked baggage screening contains a checklist
      of more general tasks that OJT monitors are to verify a student has “completed”
      during each OJT session. The brevity and lack of detailed tasks found in the OJT
      guidelines undermines the effectiveness of checked baggage OJT.

      On the other hand, while both OJT guidance documents speciﬁcally set the
      number of hours that each screener completing OJT should spend on each
      screening function, only the checked baggage OJT guidance addresses time
      requirements for cross-trained screeners, as well as those who need “differences
      training,” i.e., training on different models of ETD machines. The passenger
      checkpoint OJT guidance document also should set time standards for the
      functional training of cross-trained screeners.




  An Evaluation of TSA’s Screener Training and Methods of Testing                  Page 43
          Although time requirements are established in the checked baggage OJT
          guidance, passenger screeners who have been cross-trained to screen checked
          baggage are not required to have the full 60 hours of OJT. These cross-trained
          screeners are not required to spend time training on knowledge and skills they
          have already acquired such as security and local procedures, TSA values, and
          customer service. Instead, cross-trained screeners dedicate their OJT training time
          to new knowledge and skills. A signiﬁcantly lesser amount of time, however, is
          required of them than of newly hired screeners. For example, EDS operation is
          a new task for both newly hired checked baggage screeners and cross-trained
          passenger checkpoint screeners. The former are required to spend 23 hours of OJT
          working with EDS machines, while the latter spend 5.5 hours. In addition, some
          tasks that are required of newly hired checked baggage screeners are not required
          of cross-trained screeners, and vice-versa. For example, a cross-trained passenger
          checkpoint screener does not have to dedicate training time to learning how to
          recognize improvised explosive devices in EDS images.




Page 44              An Evaluation of TSA’s Screener Training and Methods of Testing
          Figure 3. Required Cross-Training Hours for EDS Co-Located with ETD
	

                                                 Newly Hired       Cross-Trained
                                               Checked Baggage    Checked Baggage
                  OJT Task
                                                Screener Time      Screener Time
                                                Requirements       Requirements
      Security and Local Procedures                3 hours            0 hours
      TSA Values                                    1 hour            0 hours
      Customer Service                              1 hour            0 hours
      Persons with Disabilities                     1 hour            0 hours
      Screener Awareness                            1 hour            0 hours
      Checked Baggage Overview and
                                                      1 hour           0 hours
      Operations
      Overview of EDS Operations                     1 hour          30 minutes
      EDS Operations                                13 hours          3 hours
      EDS Improvised Explosive
                                                     3 hours           0 hours
      Devices
      Common Object Recognition/
                                                     6 hours           2 hours
      Location/Bag Handling
      Bag Transportation and Proper
      Handling Procedures for ETD/               Not Applicable      30 minutes
      Physical Search
      Overview of ETD Operations                     1 hour            1 hour
      ETD Operations                                10 hours           0 hours
      100% Checked Baggage
                                                     9 hours           1 hour
      Procedures and Alarm Resolution
      Daily Shift                                    4 hours           0 hours
      Questions and Answers                          5 hours            1 hour
      Total Time                                    60 hours           9 hours

    Because certain tasks are new to both, the time requirements that newly hired and
    cross-trained checked baggage screeners are to dedicate to each of these should be
    of equal duration. It is possible that nine hours of OJT for a cross-trained screener
    is too little. On the other hand, it is possible that 60 hours of OJT for a newly
    hired checked baggage screener is too much. TSA should conduct an evaluation
    of the OJT program to determine the most appropriate amount of time that should
    be spent on each screening function during OJT to establish skills to perform all
    job related tasks and equally apply these to both newly hired and cross-trained
    screeners. In addition, while the checked baggage OJT includes “differences




An Evaluation of TSA’s Screener Training and Methods of Testing                   Page 45
          training” to familiarize screeners with models of ETD machines not taught during
          their classroom training, the OJT does not provide differences training for EDS
          machines. Because EDS models also have operational differences and some
          airports have more than one model of EDS, TSA should address this shortcoming.

          To ensure that OJT is a prescriptive, standardized process, TSA should craft
          uniform guidance that provides detailed, sequenced lists of speciﬁc tasks that each
          OJT student must perform. Where needed, TSA should provide more detailed
          instructional materials to guide OJT monitors in providing the training. TSA
          should also establish appropriate, function-speciﬁc time requirements for both
          newly hired and cross-trained screeners.

          OJT Testing Issues

          OJT test mechanisms for both passenger and checked baggage screener skills are
          limited, and to a certain extent, they are less rigorous than the testing at the end
          of classroom training. Yet ATSA requires testing after the completion of OJT, not
          classroom training.

          Upon completion of passenger checkpoint OJT, passenger screeners are required
          to take only an image recognition test, called the Image Mastery Test (IMT), to
          become certiﬁed. TSA’s policy gives students three opportunities to pass the IMT.
          Although there is no provision in the OJT program to authorize IMT remediation
          and testing more than three times, many TSA ofﬁcials in the ﬁeld said that FSDs
          permitted additional opportunities to retake the test. Through February 2004, TSA
          data indicate that of those tested, 1,154 screeners, or two percent, took the IMT
          more than the permitted maximum three times. In some cases, screeners took the
          IMT as many as eight times. Because this is the last image test threshold screeners
          must pass before they are permitted to make independent judgments, TSA should
          strictly deﬁne policies on IMT retesting.

          In addition, problems remain with the IMT. The IMT software installed on
          machines around the nation regards several items as non-threats even though they
          are currently considered threats by TSA. For example, the IMT treats screwdrivers
          and scissors as non-threats even though they are not permitted onboard aircraft.
          TSA’s EQA division identiﬁed this problem during the summer of 2002, and
          consequently, the software manufacturer made corrective adjustments to the IMT.




Page 46              An Evaluation of TSA’s Screener Training and Methods of Testing
      During a site visit in December 2003, however, we noted that the new edition of 

      the IMT software had not been installed.

      Finally, while passenger checkpoint OJT testing assesses students on their ability
      to recognize threat images, it does not test skills in the performance of other job-
      related tasks such as operation of the hand-held or walk-through metal detectors.
      As discussed, the passenger checkpoint OJT interim guidance calls for monitors to
      verify that each student can perform all screening functions without intervention.
      However, the guidance does not provide for realistic, practical testing of students
      on any screening function, such as the operation of a hand-held metal detector,
      other than the monitoring of X-ray machines. Likewise, the checked baggage
      OJT guidance calls for a practical “three-bag test” during which OJT students are
      required to perform a closed bag, limited bag, and open bag search with the use of
      an ETD machine. For those students trained on the operation of an EDS machine,
      however, there is no EDS practical testing component. Both guidance documents
      should be expanded to require post-OJT testing on all TSA-approved screening
      methods that the screener will be required to use.

Implementation

      TSA should take steps to ensure that all OJT monitors have the necessary skills
      and experience to deliver OJT and that OJT test administration is standardized.

      OJT Monitors Have Varying Qualiﬁcations to Teach Screening Skills

      TSA does not require OJT monitors for basic screener OJT to be approved or
      certiﬁed. According to passenger checkpoint OJT guidance, any screener who has
      successfully completed the appropriate basic screener training course and the 60-
      hour OJT program may act as an OJT monitor. Also, according to the guidance,
      FSDs or their designees are encouraged to select OJT monitors with the maximum
      amount of experience and a demonstrated ability to mentor and counsel other
      screeners.

      Each OJT monitor should be an expert in the necessary subject knowledge and
      skills as well as have the desire to teach and the ability to relate well with the
      person they are mentoring. But most importantly, TSA should ensure that FSDs,
      or their designees, choose monitors who have the ability to transfer their subject




  An Evaluation of TSA’s Screener Training and Methods of Testing                  Page 47
               knowledge and skills to students in an organized, systematic, easy to retain 

               manner. To ensure that TSA has the most effective and credible OJT program,
               TSA should certify individual screeners who are specially designated to deliver
               and monitor OJT. Through certiﬁcation, TSA will ensure that trainers are qualiﬁed
               and can competently transfer knowledge and skills. In addition, certiﬁcation will
               ensure that trainers practice a structured training delivery method, including test
               administration, which promotes consistency. TSA should consider expanding the
               TAI program to certify employees to conduct OJT as well as classroom training.

               Administration of Checked Baggage Practical “Three Bag Test” Was Not
               Standardized

               According to the checked baggage OJT guidelines, upon completion of the
               60 hours of OJT, persons administering the practical “three bag test” must use a
               strip with a very small amount of explosives to contaminate a test item that will
               cause an ETD machine to produce an alarm. Guidelines further specify that the
               explosive material “should be placed in the same locations for each screener.
               Each bag should produce an ETD alarm. Screeners must perform each procedure
               without error and receive an alarm on all three bags to pass this test.”

               Many local TSA staff and OJT administrators, however, are not testing with
               the explosive material strip. According to these ofﬁcials, its use contaminates
               an ETD machine, and it is difﬁcult to clean from an ETD machine. Ofﬁcials at
               TSA’s Transportation Security Lab (TSL), however, disagree that use of the test
               explosive material results in persistent machine contamination or alarm. Although
               more advanced testing products are currently being developed, TSL ofﬁcials
               believe that, for now, the test strip with explosive material should be used in the
               ﬁeld during testing. The test strip should be used, so that when an ETD machine
               produces an alarm, the OJT test administrator will know that proper sampling
               techniques are being used.

          Evaluation

               Because TSA’s EQA is short-staffed, TSA does not conduct an analysis of the
               overall effectiveness of the OJT portion of basic screener training. While OJT
               monitors are required to measure the extent to which students improve knowledge
               and increase skills as a result of the 60 hours of OJT, TSA does not measure the




Page 48                   An Evaluation of TSA’s Screener Training and Methods of Testing
            reaction and satisfaction of OJT students to the training program, the extent to 

            which change in behavior has occurred as a result of OJT, nor the impact of OJT
            on TSA’s organizational goals, such as an improved detection rate of prohibited
            items. As the level of stafﬁng increases, however, EQA plans to work with TSA’s
            Ofﬁce of Aviation Operations and begin conducting a complete evaluation of the
            OJT program.

            We recommend that the TSA Administrator:

            Recommendation 12: Ensure that OJT guidance provides detailed, sequenced
            lists of speciﬁc tasks that each OJT student must perform, including instructional
            materials where needed, and establishes appropriate, function-speciﬁc time
            requirements for both newly hired and cross-trained screeners.

            Recommendation 13: Revise OJT examinations in order to:

                  • 	 Test screeners on all TSA-approved screening methods that they will be
                      required to use upon completion of OJT;
                  • 	 Enforce the use of tests with explosive material during ETD practical
                      examinations; and
                  • 	 Standardize and enforce limits on OJT retesting opportunities, including
                      the Image Mastery Test.

            Recommendation 14: Ensure OJT monitors are certiﬁed as having the skills
            and experience necessary to deliver and monitor OJT training and administer
            subsequent testing.


Recurrent Training and Recertiﬁcation Testing

            In an October 16, 2003, statement before the Committee on Transportation and
            Infrastructure, Subcommittee on Aviation, TSA’s Administrator said TSA was
            in the process of developing a recurrent training program and that recertiﬁcation
            testing for FY 2003-04 was underway.




        An Evaluation of TSA’s Screener Training and Methods of Testing		               Page 49
                     Recurrent Training Program Has Been Established

                              ATSA speciﬁcally requires screeners to receive “training to ensure that [they] are
                              proﬁcient in using the most up-to-date technology and to ensure their proﬁciency
                              in recognizing new threats and new weapons.”26 While TSA made important
                              strides in developing recurrent training tools, TSA has opportunities to enhance
                              their effectiveness. In addition, TSA should examine the workforce implications
                              of the current three-hour-per-week training requirement of each screener.

                              Important Strides in Developing Recurrent Training Tools Have Been Made

                              On December 22, 2003, TSA’s WPT issued interim guidance to FSDs that
                              mandated the institution of a standard recurrent training program for all screeners
                              to ensure that they maintain and enhance their knowledge, skills, and abilities
                              to effectively screen persons and their property. To comply with the interim
                              guidance, all FSDs are required to develop an annual screener training plan for
                              each screener under their authority. These plans are to guarantee that all screeners
                              (1) receive recurrent training to effectively screen persons and their property,
                              (2) meet other mandatory administrative training requirements, such as ethics
                              training, and (3) further their professional development (See the interim guidance
                              in Appendix D).

                              According to the interim guidance, FSDs are required to develop a screener
                              training plan that meets the legal and regulatory requirements as well as the
                              individual performance and developmental needs of each screener. As a result, the
                              substance of the recurrent training provided to screeners is to be developed both
                              nationally and locally. This coupling of national and local training is designed
                              to offer standardized training options and allow ﬂexibility for FSDs to create
                              their own training to develop individual competencies and to address unique
                              operational needs at the airport level. For example, on a national level, TSA
                              developed several recurrent training tools, including performance videos and web-
                              based training courses on common screening procedures. On a local level, FSDs
                              may elect to supplement these training tools with safety presentations developed
                              in coordination with a local ﬁre department, teamwork techniques, and workplace
                              communication seminars.

26
     Codiﬁed in 49 U.S.C. §44935(h).




Page 50                                  An Evaluation of TSA’s Screener Training and Methods of Testing
                             To support the recurrent training program, TSA recently developed or made
                             available a number of training tools and practices, including the following:

                                  • 	 The “Excellence in Screener Performance” video series provides
                                      instruction on physical bag searches, hand-held metal detector and pat
                                      down searches, X-ray operation, and screening persons with disabilities.
                                  • 	 Eight computer-based training modules reinforce topics introduced in
                                      the “Excellence in Screener Performance” videos and introduce new
                                      material, including prohibited and dual-use items,27 operating EDS
                                      machines, and technical training for supervisors.
                                  •		 X-Ray Tutor, one of of the eight computer-based training modules,
                                      enables screeners to practice X-ray image interpretation with sample
                                      images adapted to individual performance ability and training needs.
                                      TSA recommends an average of one hour per week of practice on image
                                      interpretation.
                                  •		 “Threat in the Spotlight” presentations describe and show pictures, in
                                      some cases X-ray images, of threats recently found by screeners or from
                                      other operational and intelligence resources.
                                  • 	 The Threat Image Projection System trains and tests screeners on threat
                                      image recognition using X-ray machines and EDS equipment. This
                                      learning opportunity is enhanced when screeners are provided timely
                                      coaching and feedback on their individual performance.
                                  • 	 Increased operational testing, including testing conducted at the local
                                      level, assesses screeners’ abilities to detect a threat item under covert and
                                      realistic conditions or in a training environment.
                                  • 	 366 computer-based, off-the-shelf courses from NetG provide general
                                      business and professional development training.28

                             While some of these tools are still in development, TSA has made important
                             strides in ﬁelding training tools and practices to exercise and sharpen screener
                             skills necessary to detect prohibited items.



27
  49 U.S.C. 44935 (h) speciﬁcally requires that screeners receive training in recognizing dual-use items.
	
28
  While some courses already relate to screener tasks, such as “Excellence in Service: Working with Upset Customers,” TSA is augmenting 

these course offerings with TSA-speciﬁc training developed in house, such as “Sensitive Security Information Awareness.” 





                       An Evaluation of TSA’s Screener Training and Methods of Testing		                                      Page 51
                              Recurrent Training Requirements May Have Implications for the Screener
                              Workforce

                              According to the interim guidance on recurrent training, all screeners, both
                              full- and part-time, are to receive three hours of recurrent, administrative, and
                              professional development training each week during scheduled duty time. To
                              accommodate airports’ operational constraints and scheduling limitations, this
                              three-hour-per-week standard may be met if screeners receive this level of training
                              on average over an entire quarter. Accordingly, an airport providing a screener six
                              hours of recurrent training one week and none the next would be in compliance.29

                              While TSA has developed necessary recurrent training standards, it is not clear
                              what impact associated requirements will have on localities experiencing screener
                              stafﬁng shortages. The three-hour-per-week training standard represents a sizeable
                              staff time commitment: 7.5 percent of full-time and between nine and 15 percent
                              of part-time screeners’ non-overtime working hours. At certain airports, this major
                              commitment of staff time is concurrent with a substantial screener shortage.
                              Several training coordinators and FSDs remarked that some would ﬁnd it difﬁcult
                              to meet this new training requirement, because doing so would leave them with
                              insufﬁcient numbers to staff checkpoints and checked baggage stations. When
                              considered system-wide, screener shortages are signiﬁcant. Numerous articles
                              published in spring 2004 highlighted problems associated with multiple airports
                              that are understaffed. In addition, between May 2003 and January 2004, TSA
                              airports used the equivalent of more than ﬁve percent of its authorized screener
                              workforce in overtime hours.30 For the majority of that time, the three-hour
                              recurrent training requirement was not yet in effect.

                              While it is vital that screeners receive high-quality recurrent training to enhance
                              skills and learn about new developments, technological advances, and the latest
                              threats, many airports may not be able to meet the current requirement. TSA
                              should examine the workforce implications of the three-hour training requirement
                              and consider these implications in future workforce planning to ensure that all
                              screeners meet the recurrent training standard by performing high-quality training

29
   The guidance further recommends that this recurrent training include at least one hour of screening procedures review and one hour of 

X-ray image interpretation practice per week over a calendar quarter.
	
30
   Challenges Exist in Stabilizing and Enhancing Passenger and Checked Baggage Operations, GAO-04-440T, February 12, 2004.
	




Page 52                                     An Evaluation of TSA’s Screener Training and Methods of Testing
    activities and that FSDs are, without exception, able to staff checkpoints and
    checked baggage stations with the required number of screeners.

    Threat Image Projection Program Features Should Be Fine-Tuned to Maximize
    Training Beneﬁts

    TSA uses Threat Image Projection (TIP) for training and testing threat image
    recognition on operating X-ray machines at passenger checkpoints. The EDS
    machines at checked baggage stations may also be conﬁgured to support TIP.
    Regarded in part as a component of TSA’s recurrent training program, TIP
    transmits simulated threats onto X-ray or EDS operator screens on active
    machines at intervals governed by an image frequency algorithm. The program
    records screener responses to the simulated threats and provides immediate
    feedback to screeners on their performance. TIP notiﬁes screeners when they have
    correctly identiﬁed a TIP threat image and cautions them when they have not
    recognized a TIP threat image or taken too long to evaluate a TIP image.

    The image library that TIP draws upon for these projected images includes IEDs,
    ﬁrearms, knives, and other prohibited items and threats like opaque objects and
    dual-use items, e.g., screwdrivers. To challenge screener detection skills, many
    of the threats in these images are presented in “non-standard” orientations. An
    image of a gun from behind, such that only the butt of the weapon is visible, is an
    example of one such non-standard orientation.

    In 1997, FAA initiated TIP deployment to active screening locations as a means of
    increasing screener vigilance, providing continual on-the-job image interpretation
    training, and assessing screener performance. FAA’s efforts to institute TIP
    widely were halted by the events of September 11, 2001, out of concern that
    TIP would result in screening delays and increased passenger anxiety. FAA’s
    original logic and plans formed the basis for TSA’s later initiatives to use and
    expedite deployment of TIP at all U.S. airports. Because TSA perceived greater
    advantages to installing TIP on X-ray machines at passenger checkpoints rather
    than EDS machines at checked baggage stations, it prioritized TIP implementation
    at passenger checkpoints. In October 2002, TSA’s Administrator directed the
    formation of a TIP Integrated Product Team to develop program performance
    criteria, identify system data collection requirements, and ensure the deployment
    of TIP-Ready X-ray (TRX) machines at all airports.




An Evaluation of TSA’s Screener Training and Methods of Testing                 Page 53
          TSA adopted a December 31, 2003, deadline for TIP installation on X-ray
          machines at every passenger checkpoint in the nation. To meet this goal, TSA
          purchased and installed hundreds of TRX machines while its Image Development
          Center generated 2,400 TIP images for each of the three makes of TRX. TSA
          ultimately succeeded in installing TIP in 98% of X-ray machines nationwide by
          the deadline, but due to vendor software difﬁculties and TRX procurement delays,
          not all 1,800 X-ray machines had TIP until March 2, 2004.

          TSA has espoused a time line that calls for TIP implementation on all EDS
          machines at checked baggage stations in FY 2005. TIP is presently installed on
          many EDS machines, but the image galleries that it uses are not standardized for
          all models of EDS. Although it has not been installed on EDS machines at airports
          to date, TSA has developed a common TIP image library for all EDS machines
          used in the U.S. TSA also is evaluating technical solutions to the challenges of
          TIP image projection in a three-dimensional environment.

          To optimize the program’s training potential, TSA is assessing the cost and
          feasibility of adding a user-adaptability feature to TIP. If developed, this feature
          will tailor TIP sessions to address individual screener weaknesses revealed in
          user performance data. If a screener has particular difﬁculty identifying IEDs, for
          instance, this software feature would trigger the projection of a higher proportion
          of simulated IEDs than under standard circumstances.

          TSA plans also include the networking of all TRX machines. Once completed,
          TRX connectivity will provide substantial beneﬁts. First, it will facilitate
          information sharing on user performance among TRX machines, which is
          important to the currency of user-adaptability settings on different machines.
          Networked TRX machines also will be able to share user performance information
          with off-site, computer-based image training tools, so that these training tools can
          be similarly customized to individual screeners’ image recognition skill levels.
          Finally, TRX connectivity may ease airport-based TIP administrator obligations.
          Connectivity holds out the potential to streamline TIP data reporting and ease
          the process of adding newly prohibited items and future threats to TIP image
          galleries.

          TSA intends to use TIP as both a training tool and a performance measurement
          mechanism. To prepare for this latter function, TSA is developing TIP




Page 54              An Evaluation of TSA’s Screener Training and Methods of Testing
         performance criteria. Setting national TIP performance standards poses some 

         signiﬁcant challenges. To confront these challenges, TSA is using TIP data from
         TRX machines around the nation to establish a TIP performance baseline.

         TIP data analysis will provide the basis for work in other areas, as well. TSA plans
         to make adjustments in particular TIP image difﬁculty settings, for example, based
         on observed screener detection performance presented in TIP data. In addition,
         TSA is developing a secure website that will generate TIP summary reports with
         summaries of the performance results of individual screeners, particular airports,
         TSA regions, and U.S. airports as a whole. Headquarters, FSDs, and staff will be
         able to use these TIP data reports to customize training efforts to address observed
         screener threat detection shortcomings.

         TIP is an important recurrent training tool and offers great potential for measuring
         of screener performance. Critical improvements to the program will advance
         its usefulness as a training tool and promote its reliability as a performance
         measurement mechanism.

         Aspects of Operational Testing Can Be Enhanced to Maximize Training and
         Testing Beneﬁts




         Guidance on how to use the Modular Bomb Sets, Version II (MBS-2), and
         Weapons Training kits as effective training tools was included with the kit
         packages. Screeners are allowed to handle and assemble these items as well as
         experiment with how they appear on an X-ray monitor at various angles and in
         disassembled form, when placed in a simulated carry-on bag. As a result, both kits


31




     An Evaluation of TSA’s Screener Training and Methods of Testing                 Page 55
                               can improve screener performance by providing realistic hands-on practice tools
                               and sharpening screeners’ ability to detect IEDs and ﬁrearms.

                               ATSA mandates the operational testing of screeners.32 Operational tests are
                               performed by authorized staff using simulated or inoperable threat items,
                               such as those found in MBS-2 and Weapons Training kits, in a live screening
                               environment. A screener’s failure to identify these simulated or inoperable threats
                               and follow appropriate procedures results in the disqualiﬁcation of the screener
                               from performing the associated screening function until they have completed
                               remedial training. Remedial training consists of a review of the SOPs and
                               appropriate videos associated with the screener’s failure.

                               Thus far, operational testing has been conducted on a very limited scale and only
                               a small fraction of the screener workforce has been subjected to it. TSA’s OIAPR
                               conducted 1,095 checkpoint operational tests from November 2003 to January
                               2004 and 192 checked baggage operational tests from January 2003 to January
                               2004. DHS OIG conducted an additional 687 checkpoint operational tests and 146
                               checked baggage operational tests from July to November 2003. In addition, the
                               GAO conducted a very limited number of operational tests in 2003.

                               While operational tests provide key information about screener performance, they
                               also offer opportunities to identify and address critical recurrent training needs.
                               Recognizing the value of such testing, TSA took steps to expand the allowed
                               usage of the MBS-2 and Weapons kits. On February 23, 2004, TSA issued an
                               Aviation Operations Directive, which was later revised in June 2004, to FSDs
                               that provided guidance on using these kits to conduct passenger screener tests
                               by placing the simulated threat items in accessible property submitted for X-ray
                               examination or hidden on a person. Tests can be “practice” 33 or “operational.” 34




32
   Codiﬁed in 49 U.S.C. §44935(f).
	
33
   A practice test assesses a screener’s ability to detect a threat item under covert and realistic conditions or in a training environment. 

Failure to detect a threat item during these “practice” tests does not result in a screener being disqualiﬁed from performing the associated 

screening function until remedial training is completed.
	
34
   An operational test assesses a screener’s ability to detect a threat item under covert and realistic conditions only. Failure to detect a threat 

item during actual operational tests results in a screener being disqualiﬁed from performing the associated screening function until remedial 

training is completed. 





Page 56                                        An Evaluation of TSA’s Screener Training and Methods of Testing
                             The revised Aviation Operations Directive and associated guidance were enhanced 

                             to allow ﬁrearms and IEDs to be assembled or disassembled when used during
                             local testing. In addition, local test administrators are allowed to place assembled
                             ﬁrearms in baggage at deceptive angles and in deceptive locations. Other possible
                             enhancements to the local testing, however, would be to allow test objects to be
                             artfully concealed and carried on one of the sensitive areas of the body.35 Current
                             procedures do not permit either. Expanding the procedures to include artful
                             concealment and placement of test objects on sensitive areas is being considered
                             at this time. Both of these enhancements are necessary to increase test realism and
                             heighten its level of difﬁculty.

                             The guidelines for local testing do not authorize practice and operational testing
                             to be conducted at checked baggage screening locations since the items in the kits
                             have not been validated for EDS or ETD equipment. TSA said that it is currently
                             developing operational testing tools for use with ETD and EDS machines. TSA
                             reports, however, that completion dates for these items have not been set. We
                             believe that the distribution of test aids of this type to FSDs around the nation
                             would signiﬁcantly increase the operational testing of checked baggage screening
                             locations and aid in the detection of prohibited items in checked baggage.
                             With TSA’s recent approval to use on-screen resolution36 and future wide-scale
                             adoption of resolution procedures by EDS operators, EDS operational testing is an
                             increasingly vital airport security system assessment mechanism.

                             We recommend that the TSA Administrator:

                             Recommendation 15: Examine the workforce implications of the three-hour
                             training requirement and take steps to correct identiﬁed imbalances in future
                             workforce planning to ensure that all screeners are able to meet the recurrent
                             training standard.

                             Recommendation 16: Continue to pursue the development and application of TIP
                             user adaptability features to maximize TIP training beneﬁts.

35
   Guidance allows items to be placed on the upper-inner thigh, which TSA does not consider a sensitive area. TSA considers the breasts
(females only), genitals, and buttocks to be sensitive body areas.
36
   On February 25, 2004, TSA approved the use of on-screen resolution, otherwise known as Alarm Resolution Protocol, in which the EDS
operator interprets the bag image and may resolve benign alarms without explosives trace detection sampling or physical inspection. With
the exception of a few pilot programs, however, on-screen resolution is not yet being used.




                        An Evaluation of TSA’s Screener Training and Methods of Testing                                        Page 57
                               Recommendation 17: Expedite TRX connectivity to realize administrative and 

                               information sharing gains related to TIP.

                               Recommendation 18: Further enhance local operational testing efforts by: (1)
                               revising procedures and protocols to increase opportunities for realistic and
                               difﬁcult testing, and (2) expediting the development, certiﬁcation, and distribution
                               of ETD and EDS operational testing tools to enable assessment of screeners
                               performing these duties.

                     Annual Screener Recertiﬁcation Testing for FY 2003-04 Has Been
                     Completed

                               To determine whether the TSA security screener workforce has the necessary
                               knowledge and skills to continue to perform successfully screening functions,
                               ATSA requires TSA to conduct and document an annual proﬁciency review of
                               both passenger checkpoint and checked baggage screeners. ATSA provides:

                                           “An individual employed as a security screener may not continue to be
                                           employed in that capacity unless the evaluation demonstrates that the
                                           individual -
                                           (A) continues to meet all qualiﬁcations and standards required to perform a
                                               screening function;
                                           (B) has a satisfactory record of performance and attention to duty based on
                                               the standards and requirements in the security program; and
                                           (C) demonstrates the current knowledge and skills necessary to
                                               courteously, vigilantly, and effectively perform screening functions.”37

                               To comply with this requirement, TSA undertook recertiﬁcation testing of its
                               screeners, including lead and supervisory screeners, on October 1, 2003, with
                               an estimated completion date of March 31, 2004. This recertiﬁcation process
                               consisted of two parts: (1) a knowledge and skills assessment program; and (2) a
                               ﬁnal rating on screeners’ annual performance agreement, an annual assessment of
                               screeners signed by their supervisors. To be recertiﬁed, screeners who completed
                               OJT prior to June 30, 2003, were required to pass speciﬁed components of


37
     Codiﬁed in 49 U.S.C. § 44935(f)(5).




Page 58                                       An Evaluation of TSA’s Screener Training and Methods of Testing
    the knowledge and skills assessment program and achieve a rating of “met or
    exceeded” standards on their performance assessments.

    The knowledge and skills assessment portion of the recertiﬁcation tests screeners
    on their knowledge of passenger checkpoint or checked baggage SOPs, Aviation
    Operations Directives, and other screening operations guidance, as well as their
    skill in performing security screening functions. Three components make up the
    knowledge and skills assessment program.




    Passenger checkpoint screeners are required to take all three components, while
    checked baggage screeners are required to take the job knowledge and practical
    skills demonstration components. Screeners receive a rating of either “pass” or
    “fail” for each component. If a screener fails any component, he or she is provided
    remedial training and an opportunity to retake the component. If he or she fails
    the retest for that component, the screener is separated from TSA employment.




An Evaluation of TSA’s Screener Training and Methods of Testing                Page 59
                             As of May 2004, all screeners completed the FY 2003-04 recertiﬁcation testing.38
                             Overall, 99.9% of screeners passed the SPR, while 99.5% of passenger screeners
                             passed the IPR. The practical skills demonstration component, delivered by
                             Lockheed Martin, was the last component to be completed. Almost one quarter
                             of screeners failed their ﬁrst practical skills demonstration, while less than two
                             percent of those who initially failed did so on their second attempt after receiving
                             remedial training. Overall, 99.6% of screeners evaluated on their practical skills
                             passed. As of May 19, 2004, recertiﬁed screeners numbered 42,682.39 Dismissed
                             screeners numbered 350, as a result of their failing one of the recertiﬁcation
                             components or not having a satisfactory rating on their performance assessments.

                                                    Figure 4. Screener Recertiﬁcation Performance

                                                                     Screener Recertiﬁcation Performance
                              Recertiﬁcation
                               Components                  Passed           Passed
                                                                                                   In     Overall
                                                 Tested      1st   Retested   2nd                                        Dismissed
                                                                                                Progress† Passed
                                                           Attempt          Attempt
                              Component 1 48,518           47,264                   908           296        48,204         30
                                                                          938
                                 SPR                        97.4%                   96.8%                     99.9%

                              Component 2 33,724           32,357                    909          290        33,267         169
                                                                         1,078
                                 IPR                        96.0%                    84.3%                    99.5%

                              Component 3 42,970 32,312                       10,534        148     42,770    148
                                                                    10,683
                                Practicals               75.2%                 98.6%                  99.6%
                             *Statistics provided by Transportation Security Administration, May 19, 2004.
                             †Screeners who are on extended leave, workers’ compensation, or Performance Improvement
                             Plan.

                             A media report on the practical skills testing conducted during the third
                             recertiﬁcation component cited screener reports that evaluations were conducted


38
   This does not include 1,152 screeners who have not completed the re-certiﬁcation testing due to reasons such as being on extended
leave, workers’ compensation, or a Performance Improvement Plan, i.e., a screener who did not receive a satisfactory rating on his/her
performance assessment but has been given the opportunity to improve.
39
   The number of re-certiﬁed screeners is signiﬁcantly lower than the 48,518 screeners who took the ﬁrst re-certiﬁcation component and
reﬂects screeners who failed a re-certiﬁcation component, have yet to take one or more re-certiﬁcation components, have left TSA after
completing one or more re-certiﬁcation components, or have been reassigned.




Page 60                                     An Evaluation of TSA’s Screener Training and Methods of Testing
                             using subjective criteria and that retests were “watered down.”40 Over the full
                             course of its delivery, the third component of the recertiﬁcation process has been
                             the subject of WPT quality assurance monitoring. Quality assurance monitors
                             visited approximately 40 airports, or 11%, with staff undergoing practical skills
                             evaluations between October 2003 and February 2004. Substantive comments
                             from quality assurance visits do not support claims that retests were less rigorous
                             than initial evaluations, but they do raise concerns about the administration of
                             the practical skills testing. Quality assurance reports from a quarter of airports
                             that monitors visited pointed to signiﬁcant test administration problems.41 Quality
                             assurance ofﬁcials responded to signiﬁcant issues of this nature by ensuring that
                             corrective actions were taken immediately and that the process was improved for
                             future administration of the third recertiﬁcation component. For example, after
                             detecting early deﬁciencies, quality assurance staff developed and distributed
                             guidelines that assisted Lockheed Martin’s evaluators in assessing the practical
                             skills of screeners.

                             Under the current TSA recertiﬁcation guidelines, screeners who have been
                             cross-trained and are “actively” working as both a passenger checkpoint and
                             checked baggage screener are required to take only the recertiﬁcation test for
                             passenger screeners. Cross-trained screeners are, therefore, not required to take
                             the SPR speciﬁc to checked baggage or demonstrate the practical skills necessary
                             to perform checked baggage screening functions. As of May 17, 2004, TSA’s
                             workforce included approximately 18,588 cross-trained screeners who were
                             certiﬁed to serve as passenger or checked baggage screeners.

                             TSA’s future training plans call for an increase in the number of “dual function”
                             screeners, i.e., those that perform passenger checkpoint as well as checked
                             baggage screening functions. TSA’s WPT currently is developing a process and
                             timelines for meeting the annual screener recertiﬁcation mandate for FY 2004-05.
                             As a result of the current number of cross-trained screeners and the future increase
                             of dual function screeners, TSA’s WPT reportedly plans to establish a dual
                             function screener recertiﬁcation test for the next recertiﬁcation cycle. We agree

40
  Strohm, Chris, “Airport Screeners Slam TSA Re-certiﬁcation Program,” Government Executive, February 18, 2004.
	
41
  The following were considered signiﬁcant test administration problems: coaching of screeners during the evaluation, evaluation scenarios 

compromised, evaluation props in plain sight, evaluation on items not prohibited under TSA SOPs, evaluation on incorrect scenarios, 

evaluation scenarios too simplistic, inadequate evaluation orientation, and evaluators lacking adequate knowledge of the screening process.
	




                        An Evaluation of TSA’s Screener Training and Methods of Testing                                           Page 61
                           that screeners should be required to be recertiﬁed on every screening function
                           that they are expected to continue to perform and agree that a dual function
                           recertiﬁcation track should be established for all future recertiﬁcation testing.


         Other Issues Related to Screener Training, Screener Performance, and an
         Increase in the Detection of Prohibited Items

                           Other issues must be addressed in order to reduce further airport security system
                           vulnerabilities.

                  Use of the Online Learning Center Is Limited by Network Access

                           In March 2004, the TSA Administrator testiﬁed, “From the standpoint of training
                           delivery, our most signiﬁcant accomplishment is the launching of our learning
                           management system, the TSA Online Learning Center (OLC).”42 Among its many
                           advantages, an online learning management system can:

                                 • 	 Accommodate remote locations and ﬂexible schedules;
                                 • 	 Reach audiences large or small;
                                 • 	 Make available self-paced courses, references, and job aids, including
                                     the “Excellence in Screener Performance” video series and web-based
                                     training tools, such as technical training for supervisors;
                                 • 	 Organize professional development plans;
                                 • 	 Enable rapid updates to materials;
                                 • 	 Ensure training delivery is highly consistent;
                                 • 	 Simplify changing course schedules and controlling sign-ups;
                                 • 	 Support standardized testing and enhanced test security measures; and
                                 • 	 Provide automated record-keeping of an employee’s progress.

                           TSA has begun to realize some of these beneﬁts since launching the OLC on
                           October 31, 2003. However, TSA needs to improve screeners’ access to computers
                           and the TSA intranet in order to enable widespread use of the system.

42
  House Appropriations Subcommittee on Homeland Security, Hearing on the Transportation Security Administration FY05 Budget
Request, March 11, 2004.




Page 62		                                An Evaluation of TSA’s Screener Training and Methods of Testing
                             Use of the OLC continues to grow since the system was launched, increasing
                             from 1,400 average weekday student logins in February 2004 to 3,000 weekday
                             student logins in April 2004.43 Much of the OLC’s recent growth has been in
                             available content, such as the screener recurrent training courses that TSA is
                             making available online. Use of OLC training courses and record-keeping is
                             growing.

                                                                      Figure 5. OLC Use

                                               Learning events recorded                                 March          April
                                                 or completed online                                    2004           2004
                              Screener recurrent technical training, Threat in the
                                                                                                        66,000        93,000
                              Spotlight, and local testing events
                              Web-based online courses                                                  25,000        35,000
                              Brieﬁngs and reading assignments                                          77,000        35,000
                              Instructor-led classes and miscellaneous training
                                                                                                         7,000        15,000
                              records
                              Total                                                                    175,000       265,000

                             TSA is using or investigating the many advantages of an online learning
                             management system, from managing employee development plans to posting
                             reference materials. Handbooks for using the OLC have been posted and
                             updated online; and other materials pertinent to screening, such the SOPs and
                             Aviation Operations Directives, are to be posted in the near future. Advantages
                             of maintaining these references on the OLC include better version control and
                             replacing time-consuming, manual updates to materials with quick, centralized
                             electronic uploads over the intranet. In addition, TSA is beginning to tap the
                             OLC’s standardized testing features. The OLC has the capability to deliver online
                             written tests with randomized questions and answers and proctor codes to control
                             test administration and security. When this capability is exercised, it could help
                             TSA address the test security concerns discussed on page 20. TSA plans to pilot
                             OLC-based tests for the DFS course in summer 2004.


43
   For comparison purposes, ﬁgures include only student logins from the TSA intranet. Student logins from the TSA extranet, which TSA
launched in March 2004, increase the April ﬁgures; see page 65.




                       An Evaluation of TSA’s Screener Training and Methods of Testing                                        Page 63
          In February 2004, TSA began to require the centralization of training records in
          the OLC. Currently, TSA does not have full, centralized records to verify that
          screeners meet the training requirements of ATSA and complete three hours
          of recurrent training for every 40 hours worked. WPT recently added analysis
          software to the OLC that will enable staff to compile and analyze reports of
          employees’ certiﬁcations and completed classes, once the training records are
          added to the OLC. Before the launching of the OLC, TSA allowed training
          coordinators and contractor trainers to develop independent and non-standard
          training record systems. As a result, TSA’s training records are fragmented
          between WPT and contractor databases, plus spreadsheets, databases, and paper
          ﬁles unique to local airports. We reviewed a judgmental sample of paper and
          electronic training records at four airports, where FSDs are responsible for
          record retention. More often than not, records of ATSA-required training were
          incomplete. Shortfalls included missing or partial records of classroom training,
          missing records of equipment-speciﬁc training and examinations, documentation
          of fewer than 60 OJT hours, and missing OJT examination records. Establishing
          complete training records in the OLC will do much to improve the quality of
          screener learning histories. TSA has begun to use the OLC to schedule and
          record new training, but the compilation of historical records from contractors,
          WPT, and training coordinators has been delayed. TSA has several challenges to
          address in order to build the OLC learning histories, such as the loss of historical
          training documentation. Because some contractor training records are no longer
          accessible, TSA will need to formulate a strategy for verifying that screeners have
          fulﬁlled the training requirements.

          Other challenges include limited network connections to the OLC in the ﬁeld and
          the manual data entry workload imposed on training coordinators when training is
          conducted ofﬂine. Many of the OLC’s features, such as automated record keeping
          and secure testing, are difﬁcult or impossible to use in the absence of computers
          with high-speed connectivity to TSA’s intranet. However, of the 425 airports with
          TSA screeners, only 112, or 26.4%, have computer training labs with high-speed
          connectivity. At least 50 additional airports have computer training labs that could
          be networked, but TSA ceased these high-speed network installations in April
          2004 after exhausting funds. TSA’s information technology ofﬁce does not expect




Page 64              An Evaluation of TSA’s Screener Training and Methods of Testing
                              supplemental funding adequate to resume installations in FY 2005. This leaves 

                              screeners at 313 airports with insufﬁcient access to the OLC. 44

                              Until connectivity is improved, WPT improvised several methods to enable the
                              use of some OLC features. In March 2004, TSA launched an extranet that enables
                              employees to log in to the OLC from non-TSA computers, such as from home or
                              a public library. By the end of April 2004, TSA recorded a daily average of 950
                              weekday and 550 weekend student logins from the extranet. In addition, WPT
                              distributes online course materials to training coordinators in alternate formats,
                              including CD-Rom, videos, and paper. Training coordinators, most of whom have
                              high-speed intranet access, may download and print OLC materials or use them
                              for overhead projections. All of the new screener recurrent web-based training
                              and performance videos, and 50 of the 366 general NetG courses, are available for
                              ofﬂine use. Nevertheless, the improvised solutions have limitations. For example,
                              ofﬂine delivery of OLC content prevents training coordinators from using the
                              OLC’s automated record keeping feature, and security concerns prevent TSA from
                              offering all but the NetG courses and account administration features over the
                              extranet.

                              Providing computers with high-speed connectivity to all the airports will enable
                              TSA to make better use of the many training features the OLC offers. In the
                              July 2003 Passenger Screener Performance Improvement Study, TSA staff
                              recommended that TSA “[e]stablish adequate airport learning centers at all
                              airports that have not yet done so” and “[a]ccelerate broadband access and LMS
                              [Learning Management System, or the OLC] at all airports” in order to remedy
                              screeners’ lack of skills, knowledge, or information. TSA should continue to fund
                              the implementation of these recommendations.

                              We recommend that the TSA Administrator:

                              Recommendation 19: Fund and resume installation of computer training labs and
                              high-speed network connectivity to provide all screeners with full access to the
                              Online Learning Center.
44
   In FY 2003, TSA prioritized delivery of network connectivity to the administrative locations of the FSDs and their staff, installing the
computers and networking for 148 out of 159 FSDs. However, many of these networked computers were dedicated to staff administrative
work and distant from screening locations. TSA’s original vision for installation included extending the network beyond the ofﬁces
to airport operations areas, including training rooms, break rooms, operations centers, and screening locations, which would improve
screeners’ access to the OLC. One airport has received this full installation.




                        An Evaluation of TSA’s Screener Training and Methods of Testing                                            Page 65
                     Speciﬁc Screening Equipment Training and Certiﬁcation Is Necessary

                               TSA is required by ATSA to provide equipment-speciﬁc training to all of its
                               security screeners. According to ATSA, “An individual employed as a security
                               screener may not use any security screening device or equipment in the scope
                               of that individual’s employment unless the individual has been trained on that
                               device or equipment and has successfully completed a test on the use of the
                               device or equipment.”45 There are different models of ETD machines in use at
                               both passenger checkpoints and checked baggage screening stations at airports
                               around the country. In addition, more than one model of EDS machine is in use at
                               TSA checked baggage screening stations. The following ﬁgure lists the different
                               models of ETD and EDS machines currently in use at commercial airports:

                                        Figure 6. Security Screening Equipment Models Currently in Use

                                    TSA Screening
                                                                 Makes & Models                   Manufacturers
                                      Equipment
                                Explosives Trace                 Ionscan 400A & B                Smiths Detection
                                Detection Machines              Itemiser - Windows                 GE IonTrack
                                (ETD)                              EGIS II & III              Thermo Electron Corp.
                                Explosives Detection                 3DX 6000                  L-3 Communications
                                Systems Machines                  CTX 2500, 5500                    InVision
                                (EDS)                                CTX 9000                       InVision

                               Each model of ETD and EDS machines has signiﬁcant operational and preventive
                               maintenance requirements speciﬁc to that model. For ETD machines, sampling
                               media, placement of sampling swab, calibration/ veriﬁcation procedures,
                               machine start-up procedures, shift maintenance, decontamination procedures,
                               and operations monitor display differ among each of the three makes currently
                               in use. For EDS machines, the imaging orientation, operator image manipulation
                               capabilities, and operator panel and console presentation and display are critically
                               different.




45
     Codiﬁed in 49 U.S.C. § 44935(g).




Page 66                                   An Evaluation of TSA’s Screener Training and Methods of Testing
    To achieve ATSA compliance and foster screener understanding of the operational 

    and preventative maintenance differences of the machines, it is essential that
    screeners be trained on the particular make and model of EDS and ETD machine
    with which they will work. Staff reported that TSA attempted to schedule newly
    hired checked baggage screeners on the models of EDS and ETD machines
    that are located at the airport at which they will be working. If a course was not
    available with both the required EDS and ETD models, however, the EDS model
    took precedence. For newly hired passenger checkpoint screeners who would be
    using ETD machines, TSA did not make an effort to schedule them in courses that
    would certify them to operate a speciﬁc model of ETD machine because TSA did
    not consider ETD certiﬁcation a job requirement for these screeners.

    We compared the model of screening devices offered during instruction in the
    basic passenger checkpoint and checked baggage courses throughout December
    2003 against the models of ETD and EDS screening systems available at
    screeners’ home airports. In general, screeners were scheduled to train on the
    appropriate EDS model for their airports. However, of 481 students enrolled
    in the checked baggage courses, 96, or 20%, returned to home airports listed
    as not having the ETD model that they had been trained to use. For passenger
    checkpoint screeners, 201 of 808, or 25%, returned to home airports listed as
    having ETD models different from the one on which they trained.




An Evaluation of TSA’s Screener Training and Methods of Testing              Page 67
                            Figure 7. Model-speciﬁc Screener ETD Training
	

                                                      Screener ETD Training
              Basic Screener
             Training Course              Student             Trained on          Not Trained on
                                       Enrollment for        Home Airport         Home Airport
                                         Dec. 2003           ETD Model*            ETD Model*

           Checked Baggage                   481                   385                96
                                                                          80%                20%

           Passenger Combo                   808                   607                201
                                                                          75%                25%

                    Total                    1,289                  992                297
                                                                          77%                23%
          *According to TSA EDS and ETD Machine Inventory, December 2003.

          While it may be difﬁcult logistically to schedule newly hired screeners in basic
          courses that certify them on the appropriate EDS and ETD models for their
          airports, it is imperative all checked baggage screeners have speciﬁc training
          that addresses the speciﬁc operation and nuances of the makes and models of
          ETD and EDS machines. The checked baggage OJT guidelines provide for
          checked baggage screeners to receive “differences training” that orients them to
          ETD models not taught during their scheduled classroom training, but the OJT
          environment is less structured and standardized than classroom training.

          In addition, because passenger checkpoint screeners should be able to perform
          tasks related to basic ETD machine operation and maintenance, these screeners
          should be trained on the speciﬁc operation and nuances of the makes and models
          of ETD machines. While the alarm resolution procedures using ETD are different
          for passenger checkpoint screeners than checked baggage screeners, the operation
          and preventative maintenance requirements of the actual ETD machines are the
          same for both passenger checkpoint and checked baggage screening.

          The deﬁciency in training on speciﬁc makes and models of ETD machines has
          been addressed in part by TSA through its design of the DFS course. During this
          course, TSA incorporated time for all newly hired screeners to learn both the




Page 68              An Evaluation of TSA’s Screener Training and Methods of Testing
                             Ionscan and Itemiser ETD machines.46 However, selected screeners train on only
                             one make and model of EDS machine. As a result, TSA should continue to ensure
                             that these newly hired screeners are scheduled for basic courses that certify them
                             on the correct make and model of EDS machine for their airports.

                             As a corollary to training screeners on the appropriate ETD and EDS models
                             for their airports, TSA should schedule trained screeners to operate the machine
                             models for which they are qualiﬁed. Although the training coordinators said they
                             communicate with scheduling ofﬁcers about screener qualiﬁcations, TSA does
                             not have a system in place to prevent scheduling ofﬁcers from assigning screeners
                             to operate equipment they are not qualiﬁed to use. During one of our site visits,
                             we reviewed training records available at the checked baggage training stations
                             for a random sample of checked baggage screeners to determine whether these
                             screeners were certiﬁed on the model of EDS machine located at the checked
                             baggage station to which they had been assigned.47 Of 40 checked baggage
                             screeners, 21, or 53%, were scheduled to work at stations with models of EDS
                             machines different from the model on which they were certiﬁed.

                                                    Figure 8. On-Duty Screener EDS Certiﬁcations


                                                           On-Duty Screener EDS Certiﬁcations   Screeners
                                 Checked
                                               EDS Model                                      Not Certiﬁed on
                                 Baggage
                                                at Station                                       Model at
                             Screening Station              CTX 5500 CTX 9000 3DX 6000 Screening Station

                                 Station #1        3DX 6000            5               3             12              8 (40%)

                                 Station #2        CTX 5500            3               8             0               8 (73%)

                                 Station #3        3DX 6000            3               0             3               3 (50%)

                                 Station #4        CTS 5500            1               2             0               2 (67%)


                                Total Not Certiﬁed on
                                                                        8              13             0              21 (53%)
                               Model at Screening Station


46
  Because it is being phased out of the security screening system, TSA is not training screeners on the operation of the EGIS ETD machine.
47
  In some instances, screeners, who were not certiﬁed on the equipment located at the checked baggage to which they were assigned, were
not operating the equipment but performed other duties such as loading baggage onto the machine conveyor belts.




                        An Evaluation of TSA’s Screener Training and Methods of Testing                                         Page 69
               Some scheduling ofﬁcers responsible for scheduling new screeners for OJT
	
               and for shifts are informed of screener equipment certiﬁcations by training
               coordinators on an ad hoc basis, often via email or verbally. In other cases,
               screening managers located at passenger checkpoints and checked baggage
               stations were responsible for determining the equipment certiﬁcations of screeners
               assigned to their station by either talking to the screener, calling the local training
               ofﬁce, or referring to sometimes outdated or incomplete training records that
               are located at the checkpoints and stations. One training coordinator whom we
               interviewed planned to improve local records of screener certiﬁcation and hoped
               to use them as a management control to ensure appropriate work assignments.
               TSA is headed in this direction as well, and recently added analysis software to
               the OLC that will facilitate the generation of certiﬁcation reports. The OLC itself
               offers more than 80 reports for training coordinators. To ensure that screeners are
               scheduled to work on machines on which they have been certiﬁed and to assist
               scheduling ofﬁcers determine the certiﬁcations that each screener has earned, TSA
               should develop a scheduling system that will interface with the training records
               found in the OLC.

               We recommend that the TSA Administrator:

               Recommendation 20: Ensure that screeners are scheduled for basic classroom
               training that provides initial certiﬁcation on the speciﬁc make and model of ETD
               and EDS machines that they operate.

               Recommendation 21: Improve management controls for the screener scheduling
               system, such as linking scheduling to employee qualiﬁcations in the Online
               Learning Center, to ensure that TSA schedules screeners to operate only
               equipment on which they are certiﬁed.

          Efforts to Advance the Development and Deployment of New Screening
          Technologies Should Be Accelerated

               Current TSA screener training is largely shaped by the screening technologies in
               use today. Passenger checkpoint screeners, for example, dedicate considerable
               training time to learning how to recognize threats in X-ray images, because
               the effectiveness of X-ray screening depends on whether the X-ray operators




Page 70                   An Evaluation of TSA’s Screener Training and Methods of Testing
    recognize threat images. Checked baggage screeners, in contrast, learn very
    little image interpretation because the EDS machines they use have a different
    technology that identiﬁes and locates potential threats without operator
    intervention. The effectiveness of TSA’s screening technologies depends in
    varying degree on operator performance. In other words, screeners’ overall
    performance in guarding against transportation security threats relies both on
    human skill, which training can enhance to a certain extent, and on the capabilities
    of screening technology. Since there are limitations on human performance,
    investing in improved screening technologies is one way that TSA can improve
    overall performance in detecting threat items.

    On their own, screeners cannot detect all threat items all of the time. Several
    “human factors” combine to limit screeners’ ability to do so, including fatigue,
    task complexity, and social conventions. Screeners performing repetitive tasks,
    such as hand-wanding or ETD sampling, must combat a degree of monotony
    while strictly applying SOPs without short-cutting or adopting improper
    techniques. The repetitiveness of screening passengers and baggage creates
    fatigue, which can lead to decreased attentiveness and accuracy. X-ray operation
    also requires unﬂagging vigilance for an uncertain threat, plus extremely well-
    honed image recognition capabilities. Property that passes through X-ray
    machines for screening contains a universe of items assembled into a virtually
    limitless number of conﬁgurations. Given the complexity of object recognition
    efforts and the impact of fatigue, there are limits on human performance in this
    area, even if the screener has an aptitude for the work and substantial training and
    experience. In another example, social conventions discourage screeners from
    encroaching on travelers’ privacy to pat down passengers close to sensitive body
    areas while searching for threat items. While the SOPs prohibit screeners from
    touching certain sensitive areas during a full-body pat down, some screeners
    give these areas particularly wide berth when conducting their searches. Aspects
    of screeners’ work are extremely challenging and present substantial hurdles in
    vigilance, skill development, and technical and procedural adherence.

    Screener selection, training, testing, and monitoring can help screeners overcome
    these challenges in many cases, but will not guarantee complete success. There
    are fundamental limitations on human performance in any line work; airport
    security screening is no exception. Such screener performance deﬁciencies create
    openings in the security system that render aviation more vulnerable. In fact,




An Evaluation of TSA’s Screener Training and Methods of Testing                  Page 71
                              recent operational test results from DHS OIG48 indicate that screener performance
                              was a factor in 82% of passenger checkpoint and 61% of checked baggage
                              screening failures.49

                              To a signiﬁcant extent, technological limitations result in vulnerabilities
                              independent of human performance factors. DHS OIG staff conducting
                              operational penetration tests in 2003 reported that screening technology
                              limitations were a factor in 30% of security failures at checkpoints and 30% of
                              failures at checked baggage screening stations.50 Some of the currently deployed
                              screening technologies lack detection capabilities for certain threats, and some
                              depend too heavily on the detection capabilities of screeners.

                              In its own Passenger Screener Performance Improvement Study, TSA
                              acknowledged that “technological limitations combine with human factors to
                              prevent 100% detection” of threats. The report continues by recommending that
                              TSA “accelerate efforts to identify, test, and deploy new technologies.” In line
                              with this analysis, TSA is actively involved in the development of new systems
                              to improve screener performance and materially aid in threat detection efforts.
                              One goal of development efforts is to furnish screeners with more performance
                              monitoring aids. The implementation of TIP, discussed earlier, is an associated
                              effort. TSA is also pursuing testing and approval of a pressure gauge for ETD
                              sampling wands to provide feedback to screeners on the amount of pressure they
                              are using in sampling bags. Other current TSA technological development efforts
                              are geared toward reducing the human factor in checkpoint and checked baggage
                              screening by developing superior automated detection aids.

                              A substantial measure of current airport security system vulnerability is linked to
                              screener performance. Accordingly, some security system vulnerabilities can be
                              addressed with improved selection, training, and monitoring of screeners. These


48
   Department of Homeland Security, Ofﬁce of Inspector General, Ofﬁce of Audits, “Audit of Passenger and Baggage Screening 

Procedures at Domestic Airports.” OIG-04-37, September 2003.
	
49
   For the purposes of this section, operational test failures due to “inadequate training” or “failure to adhere to standard operating 

procedures” were considered failures due to screener performance. In several instances, non-human factors, e.g., technological limitations, 

contributed to operational test failures in which screener performance was also a factor. 

50
   Operational test failures were sometimes attributable to multiple causes. In several instances, human factors contributed to operational 

test failures in which technological limitations were also a factor. 





Page 72                                      An Evaluation of TSA’s Screener Training and Methods of Testing
      efforts will ultimately experience diminishing returns, however, as the quality of
      human performance of current screening functions is ﬁnite. At checkpoints and
      checked baggage screening locations, the best way to address these vulnerabilities
      is through the development of new technologies that provide more substantial
      screening assistance to operators and reduce the impact of human limitations.
      While organizational and individual actions will continue to play a critical role in
      airport screening, the application of new screening technologies holds the greatest
      long-term potential for reducing airport security system vulnerabilities and
      increasing the detection of prohibited items.

      We recommend that the TSA Administrator:

      Recommendation 22: Continue efforts toward the development and advancement
      of technologies to support screening efforts. Resource investment should place
      particular emphasis on technologies for passenger checkpoint screening, as
      passenger screening procedures are more operator dependent and, thus, more
      vulnerable to human factors than checked baggage screening.

Future Planning Should Account for Continually Changing Training
Requirements

      Transportation security screening is a dynamic ﬁeld fueled by evolving threats
      and changing means of confronting these threats. Terrorists and others posing a
      threat to aviation security will continue to use different and evolving techniques to
      avoid detection. In response to information on these changing threats and ongoing
      appraisals of the screening process, TSA adjusts screening procedures. While
      many screening technologies under development are geared toward reducing
      the human factor in screening, screeners will nonetheless have to absorb new
      technical information on an ongoing basis to accommodate the deployment of
      these new technologies. Moreover, given sufﬁcient resources, TSA’s research
      and development efforts could result in a radical transformation of passenger and
      checked baggage screening operations in a matter of years.

      Anticipated changes in threats, procedures, and technologies present a major
      future training challenge for TSA. Unlike more static ﬁelds, it will be necessary
      for the security screening workforce to have evolving training requirements.




  An Evaluation of TSA’s Screener Training and Methods of Testing                  Page 73
          Consequently, it is imperative that TSA’s administrative apparatus be capable of
          continuously developing and implementing new training tools.




Page 74              An Evaluation of TSA’s Screener Training and Methods of Testing
Appendix B
OIG Evaluation of Management Comments



                   We evaluated TSA’s written comments to the draft report and made changes, as
                   appropriate, to the ﬁnal version. Below is a summary of our analysis of TSA’s
                   response to the recommendations contained in the draft report.

                   Recommendation 1: Complete the analysis for basic screener classroom training,
                   both for passenger checkpoint and checked baggage screeners, and institute
                   mechanisms to ensure that staff update the analysis at least annually and apply the
                   results to curriculum revisions.

                   TSA Response: WPT’s Screener Training Division will re-examine the basic
                   screener training program with assistance from WPT’s Instructional Design,
                   Performance Consulting, Standards and Testing, and Quality and Assurance and
                   Evaluation Divisions. TSA also noted that its Performance Consulting Division
                   completed a performance assessment of internal training development procedures
                   in February 2004, which examined overall improvements for the basic screener
                   training program.

                   OIG Evaluation: The Performance Consulting Division’s study that TSA cites
                   provided comprehensive recommendations on program management for basic
                   screener training. The study does not contain analysis of the training needs of new
                   passenger checkpoint and checked baggage screeners, nor does it develop job
                   competencies into discrete tasks, training content and strategies, and measurable
                   objectives. However, the study recommends that WPT adopt an instructional
                   design model that includes the analysis phase and “immediately” launch a second
                   study to examine and link job competencies, performance expectations, learning
                   objectives, learning activities, and test items. The Performance Consulting
                   Division also recommended that WPT develop and annually revise a long-range
                   program plan for screener training. Based on TSA’s response, it appears that WPT
                   has not yet completed these recommendations from the February 2004 study.
                   Their completion should satisfy our recommendation. In its action plan, TSA
                   should provide an update on its progress toward completing the second study and
                   long-range plan. Recommendation 1 is resolved – open.

                   Recommendation 2: Ensure that passenger checkpoint and checked baggage
                   basic course objectives (1) address the knowledge and skills necessary for routine
                   screener performance, as identiﬁed by the most current task analysis, and (2) are
                   presented to students at the beginning of course lessons.




Page 94                       An Evaluation of TSA’s Screener Training and Methods of Testing
                                                                              Appendix B
                                                   OIG Evaluation of Management Comments



    TSA Response: Internal and contractor subject matter experts evaluated the
    course objectives for the April 2004 version of the Dual Function Screening
    course and found that they support the knowledge and skills necessary for
    routine screener performance. The new course materials present objectives at
    the beginning and end of each lesson. TSA added that when WPT completes the
    analysis for the basic screener training program, per our ﬁrst recommendation,
    staff will update the course objectives and content, as needed.

    OIG Evaluation: We accept TSA’s response and look forward to reviewing
    TSA’s course materials once they are revised based on the completed analysis.
    Recommendation 2 is resolved – open.

    Recommendation 3: Further revise written examinations and administration
    procedures, including the following steps:

          • 	 Ensure all course objectives receive an appropriate assessment of student
              learning;
          • 	 Thoroughly validate tests, including passing scores, if they are to be used
              for selection decisions;
          • 	 Pilot-test examination questions to ensure their clarity and objectivity;
          • 	 Schedule tests later during the course to enhance their ability to measure
              students’ long-term retention of course material; and
          • 	 Incorporate post-test reviews to prevent screener misconceptions from
              being carried into the workplace.

    TSA Response: TSA’s goal is to ensure that all course objectives receive an
    appropriate assessment of student learning and are covered by test material from
    one of the DFS written, image interpretation, or practical skills demonstration
    tests. To validate tests, TSA directly mapped DFS written test items back to
    training content and revised cut scores using Angoff panels, a technique where
    subject matter experts rate the probability that a minimally competent screener
    would answer each item correctly. Furthermore, TSA piloted all DFS tests before
    the course was released. Finally, TSA now administers tests at the conclusion of
    the course and conducts standardized post-test reviews. During these reviews,
    missed concepts, and not individual questions, are discussed.




An Evaluation of TSA’s Screener Training and Methods of Testing		                 Page 95
Appendix B
OIG Evaluation of Management Comments



                   OIG Evaluation: We are satisﬁed that TSA has thoroughly validated and piloted
                   written tests. In addition, we are pleased that TSA currently is administering
                   written tests near the end of its DFS course and conducting post-test reviews.
                   We maintain, however, that instructors need to review all concepts missed by
                   screeners who will advance to OJT, whether associated test items were missed by
                   one or many students. Finally, we agree that TSA’s goal should be to ensure that
                   all course objectives receive an assessment of student learning. We request that
                   TSA provide, as part of its action plan, the document that maps course objectives
                   to test items. Recommendation 3 is resolved – open.

                   Recommendation 4: Develop and distribute detailed test administration
                   guidelines for Practical Demonstration of Proﬁciency Evaluations with the aim of
                   increasing standardization.

                   TSA Response: TSA revised the practical skills checklists and administration
                   guidelines for implementation with the new DFS course. The more detailed
                   practical skills checklists specify exactly what behaviors need to be demonstrated
                   for each task. The Administration Guide for Practical Skills Demonstrations
                   conducted during Checkpoint, Checked Baggage, or Dual Functioning Screener
                   Training, May 2004, standardizes the process by clearly stipulating that a student
                   is required to perform the practical skills demonstrations without coaching from
                   the test administrator.

                   OIG Evaluation: TSA’s revisions may address this recommendation by providing
                   instructors with sufﬁcient detail on assessing demonstrated tasks and a list of
                   steps that must be executed by students for them to be credited with successfully
                   performing each task. As part of its action plan to resolve this recommendation,
                   TSA should provide us with a copy of the practical skills checklists and the
                   Administration Guide for Practical Skills Demonstration conducted during
                   Checkpoint, Checked Baggage, or Dual Functioning Screener Training, May
                   2004, from the new DFS course. This recommendation will be closed when we
                   have reviewed revised DFS practical skills checklists and administration guide.
                   Recommendation 4 is resolved – open.

                   Recommendation 5: Distribute effective training materials to reinforce learning
                   and allow for individual study outside the classroom.




Page 96                       An Evaluation of TSA’s Screener Training and Methods of Testing
                                                                             Appendix B
                                                  OIG Evaluation of Management Comments



    TSA Response: With the deployment of the DFS course, TSA developed detailed
    student guides that include slide contents and content notes for each associated
    slide. Students are permitted to take these guides outside of the classroom
    allowing for individual study and must return the guides before taking the job
    knowledge test for each module.

    OIG Evaluation: TSA should provide us with a copy of the DFS student
    guide. This recommendation will be closed upon our review of that document.
    Recommendation 5 is resolved – open.

    Recommendation 6: Require all TSA approved instructors to complete an
    appropriate form of OJT prior to providing instruction and to undergo annual
    recertiﬁcation testing.

    TSA Response: TAIs have completed security screener training, including OJT,
    and are required to meet all recertiﬁcation requirements. TSA also lists a number
    of contract instructor requirements, including a complete annual certiﬁcation of
    proﬁciency in a Practical Skills Demonstration.

    OIG Evaluation: Because TAIs complete OJT and meet all recertiﬁcation
    requirements, using TAIs to conduct new hire and cross-training on an exclusive
    basis is the direction that TSA should take. Until this is implemented fully,
    however, the additional experience gained from completing OJT would better
    equip contract instructors with the knowledge and skills to conduct screener
    training effectively. TSA’s response does not address OJT requirements for
    contract instructors. In addition, because changes and developments in security
    screening procedures are frequent, TSA should have a method to verify, on an
    annual basis, that instructors maintain the knowledge and skills necessary to teach
    current screening procedures and machine operation. Some contract instructors
    who recently completed a train-the-trainer course on how to instruct the DFS
    course passed written and practical tests on updated procedures. However, it is
    unclear whether contract instructors would receive annual evaluations of their
    familiarity with current procedures, in the absence of new train-the-trainer
    courses. Recommendation 6 is unresolved. To resolve this recommendation, TSA
    should adopt a means to verify that contractor instructors know current screening
    procedures, by annual recertiﬁcations or some alternative, and possess familiarity
    with screening in airports, through OJT or otherwise.




An Evaluation of TSA’s Screener Training and Methods of Testing                 Page 97
Appendix B
OIG Evaluation of Management Comments



                   Recommendation 7: Analyze the cost and feasibility of establishing designated
                   training sites where screening equipment, simulators, and training aids can be
                   permanently located and readily available to students.

                   TSA Response: TSA is currently examining the cost and effectiveness of locating
                   training centers near proposed hiring centers or in currently established training
                   centers located at or near major training locations.

                   OIG Evaluation: The establishment of designated training sites would improve
                   the effectiveness of initial screener training. We are pleased that TSA is assessing
                   the cost of establishing such training sites. Upon completion of TSA’s analysis,
                   we will close this recommendation. Recommendation 7 is resolved – open.

                   Recommendation 8: Use alternatives to lectures more frequently during
                   classroom training to help maintain student attentiveness, contribute to the
                   comprehension and mastery of new knowledge and skills, and foster retention of
                   the material.

                   TSA Response: With the release of the DFS course, a number of alternative
                   delivery modes are employed in basic training, including practical labs in a
                   simulated checkpoint environment, additional demonstration and practice during
                   the full-body pat down and screener safety and awareness lessons, probing
                   questioning by instructors, a visit to an airport checkpoint, and new software
                   applications for image interpretation.

                   OIG Evaluation: Alternate methods of delivery were used more frequently in
                   passenger checkpoint courses than in checked baggage courses. The alternate
                   delivery methods listed by TSA in its response focus largely on passenger
                   checkpoint screening. However, TSA must ensure that alternate methods of
                   delivery are used by instructors when training screeners how to operate EDS
                   machines and follow checked baggage screening procedures. This should include
                   a visit to an airport checked baggage station and demonstration and practice on an
                   EDS machine or simulator. In addition to reviewing TSA’s action plan to resolve
                   this recommendation, we will review the DFS course curriculum, including
                   the course schedule and course administration manual given to instructors.
                   Recommendation 8 is resolved – open.




Page 98                       An Evaluation of TSA’s Screener Training and Methods of Testing
                                                                             Appendix B
                                                  OIG Evaluation of Management Comments



    Recommendation 9: Cease all coaching of students during practical
    demonstration of proﬁciency evaluations.

    TSA Response: TSA’s Administration Guide for Practical Skills Demonstration
    conducted during Checkpoint, Checked Baggage, or Dual Functioning Screener
    Training, May 2004, standardizes the process a test administrator must follow
    when administering practical skills demonstrations. This guide clearly stipulates
    that a student is required to perform the practical skills demonstrations initially
    without coaching or feedback from the test administrator.

    OIG Evaluation: The new administration guide speciﬁcally prohibits coaching
    during practical demonstration of proﬁciency evaluations and allows quality
    assurance staff to observe the skills demonstration. Recommendation 9 is closed.

    Recommendation 10: Ensure that leadership within the screener workforce
    diligently monitors screeners and immediately corrects identiﬁed failures to
    adhere to screening procedures and negligent screening techniques.

    TSA Response: TSA is working on revising the Checked Baggage SOP, including
    a chapter on “Screening Oversight and Audits,” that will cover how a supervisor
    must verify that screeners are following procedures as outlined in the SOP. In
    addition, TSA allows ﬂexibility at the local level to decide how supervisors
    appropriately monitor and evaluate screener performance. For example, leadership
    at one airport created a form for screener managers to observe and rate each
    screener’s performance on a weekly basis and correct mistakes or recommend
    recurrent training.

    OIG Evaluation: TSA may address part of this recommendation through the
    incorporation of a “Screening Oversight and Audits” chapter in the Checked
    Baggage SOP. However, TSA also should revise the Passenger Checkpoint SOP
    to include a chapter on oversight. In addition, while we are encouraged by the
    example of extra measures taken by a local airport to observe, rate, and correct
    screener performance, until such measures are adopted and enforced at the
    national level, room for improvement remains. As part of its action plan to further
    resolve this recommendation, TSA should provide us with a copy of the “Screener
    Oversight and Audits” chapter of the Checked Baggage SOP. Recommendation 10
    is resolved – open.




An Evaluation of TSA’s Screener Training and Methods of Testing                  Page 99
Appendix B
OIG Evaluation of Management Comments



                   Recommendation 11: Continue the development of evaluations that will relate
                   training to screener application of learning on the job and to organizational
                   results.

                   TSA Response: Implementing a 4-level evaluation model, including evaluations
                   that focus on the application of learning on the job and the organizational impact
                   of training, is an industry standard and one of WPT’s goals. WPT is waiting
                   for resources to become available to conduct these two additional levels of
                   evaluation.

                   OIG Evaluation: We accept TSA’s response. In its action plan, TSA should
                   specify the resources required for conducting the evaluations. In the absence of
                   a comprehensive 4-level evaluation regimen, TSA may be able to apply existing
                   performance measurements, such as operational testing results, as indicators of
                   training outcomes. Recommendation 11 is resolved – open.

                   Recommendation 12: Ensure that OJT guidance provides detailed, sequenced
                   lists of speciﬁc tasks that each OJT student must perform, including instructional
                   materials where needed, and establishes appropriate, function-speciﬁc time
                   requirements for both newly hired and cross-trained screeners.

                   TSA Response: TSA redesigned its OJT checklists to include a detailed,
                   sequenced list of tasks to be completed and minimum OJT time requirements
                   for particular job functions. TSA is now in the process of establishing a team to
                   consider OJT program improvements.

                   OIG Evaluation: TSA’s updates to OJT checklists are responsive to this
                   recommendation. However, TSA’s response did not speciﬁcally address function
                   speciﬁc OJT time requirements for cross-trained screeners. If these requirements
                   have not already been set out in the revised OJT checklists, the project team
                   charged with devising ways to improve the OJT program should address this. As
                   part of its action plan to resolve this recommendation, TSA should provide us
                   with its revised OJT checklists. Recommendation 12 is resolved – open.




Page 100                      An Evaluation of TSA’s Screener Training and Methods of Testing
                                                                              Appendix B
                                                   OIG Evaluation of Management Comments



    Recommendation 13: Revise OJT examinations in order to:

          • 	 Test screeners on all TSA-approved screening methods that they will be
              required to use upon completion of OJT;
          • 	 Enforce the use of tests with explosive material during ETD practical
              examinations; and
          • 	 Standardize and enforce limits on OJT retesting opportunities, including
              the Image Mastery Test.

    TSA Response: The current OJT checklists serve as examinations on the
    procedures outlined in the screening SOPs. Screener Training Division’s Project
    Team for OJT program improvements will address improvements to the OJT
    examinations. Improvements include working with the Transportation Security
    Lab to develop a reliable method for testing with explosive material during ETD
    practical examinations. TSA also noted that its Guidance for Administering
    Security Screener On-the-Job Training, version 3.5, limits retesting opportunities
    to two.

    OIG Evaluation: TSA’s comments are responsive to the ﬁrst two parts of the
    recommendation. We modiﬁed the second part of the draft recommendation
    to account for TSA’s plan to develop and use an alternative explosive material
    during ETD examinations, as the current material, i.e., dry transfer strips, is not
    sufﬁciently reliable. Regarding the third part of the recommendation, TSA’s
    response establishes a standardized limit on OJT retesting opportunities. Our
    concern is that the same limit existed previously and was not enforced, thereby
    allowing some FSDs to grant screeners as many as eight opportunities to take the
    IMT. In its action plan, TSA should clarify how it plans to monitor and enforce
    the retesting limits in the Guidance for Administering Security Screener On-
    the-Job Training. TSA also should provide copies of the revised OJT checklists
    and an update on the Transportation Security Lab’s progress in developing an
    alternative explosive test material for ETD examinations. Recommendation 13 is
    resolved – open.

    Recommendation 14: Ensure OJT monitors are certiﬁed as having the skills
    and experience necessary to deliver and monitor OJT training and administer
    subsequent testing.




An Evaluation of TSA’s Screener Training and Methods of Testing		               Page 101
Appendix B
OIG Evaluation of Management Comments



                   TSA Response: TSA is analyzing the feasibility of implementing a formalized
                   OJT program for OJT monitors. In addition, this recommendation is one of the
                   improvements to the OJT program that TSA’s Project Team will address.

                   OIG Evaluation: We are encouraged that TSA is analyzing the feasibility of
                   implementing a formalized OJT program for OJT monitors. The implementation
                   of an effective OJT program for OJT monitors would be fully responsive to our
                   recommendation. Recommendation 14 is resolved – open.

                   Recommendation 15: Examine the workforce implications of the three-hour
                   training requirement and take steps to correct identiﬁed imbalances in future
                   workforce planning to ensure that all screeners are able to meet the recurrent
                   training standard.

                   TSA Response: TSA summarized its “Interim Screener Recurrent Training
                   Program Guidance.” TSA recounted the methodology for measuring and logging
                   training hours, the types of available recurrent training, and its expectations
                   for FSDs to develop and manage training plans that meet both the three-hour
                   requirement for recurrent training and screener developmental needs.

                   OIG Evaluation: TSA’s comments are not responsive to our recommendation
                   because they do not indicate whether TSA’s workforce plans ensure that an
                   additional three-hour demand on screeners’ workweek is feasible. TSA’s history
                   of logging extensive screener overtime hours and comments from TSA ﬁeld staff
                   suggest that the demand may not be feasible at current stafﬁng levels. We are
                   particularly concerned for part-time screeners, who also must meet the three-
                   hour requirement but who typically are not scheduled to work during periods
                   of low passenger volume when airports might conduct screening and training
                   concurrently. During the course of our review, we made four requests for a copy
                   of TSA’s 2004 workforce plan in order to evaluate the extent to which the plan
                   accounted for the recurrent training requirement. In its action plan, TSA should
                   provide a copy of the workforce plan and an explanation of how the recurrent
                   training requirement affected or will affect planned stafﬁng levels. Other steps
                   that TSA could take toward resolving this recommendation include providing
                   statistics from the Online Learning Center regarding the extent to which airports
                   have been able to log the required three hours per screener. Recommendation 15
                   is unresolved.




Page 102                      An Evaluation of TSA’s Screener Training and Methods of Testing
                                                                             Appendix B
                                                  OIG Evaluation of Management Comments



    Recommendation 16: Continue to pursue the development and application of TIP
    user adaptability features to maximize TIP training beneﬁts.

    TSA Response: TSA is ﬁnalizing the Functional Requirements for the Second
    Generation TIP System for x-ray machines that is envisioned to include an
    adaptive learning capability. Upon ﬁnalization of requirements, TSA will work
    with TRX vendors to analyze the feasibility of development and implementation.

    OIG Evaluation: TSA’s efforts are responsive to this recommendation. We are
    hopeful that TSA’s analysis will result in the actual development and application
    of an adaptive learning capability to TIP. Recommendation 16 is resolved – open.

    Recommendation 17: Expedite TRX connectivity to realize administrative and
    information sharing gains related to TIP.

    TSA Response: TSA is currently conducting a TRX/TIP Network Pilot Program
    at ﬁve airports. This pilot is designed to connect existing TRX machines and the
    National TIP Server to the TSA Network, test and evaluate the TIP Network,
    standardize a networking and connectivity solution that can be deployed to
    additional airports, and lay the groundwork for continued screening performance
    improvement. In addition, the pilot provides a foundation for TSA to develop the
    Civil Aviation Security Screening Network (CASSNET) which will provide the
    next generation of connectivity for airport security equipment including ETD,
    TIP-ready x-rays, EDS, and WTMD.

    OIG Evaluation: We are encouraged by the TRX/TIP Network Pilot Program
    currently being conducted and are hopeful that connectivity and networking
    at all other airports is achieved in the near future. Recommendation 17 is
    resolved — open.

    Recommendation 18: Further enhance local operational testing efforts by:
    (1) revising procedures and protocols to increase opportunities for realistic and
    difﬁcult testing, and (2) expediting the development, certiﬁcation, and distribution
    of ETD and EDS operational testing tools to enable assessment of screeners
    performing these duties.




An Evaluation of TSA’s Screener Training and Methods of Testing                Page 103
Appendix B
OIG Evaluation of Management Comments



                   TSA Response: TSA will study the addition of more difﬁcult types of operational
                   tests, including the use of threat objects that are artfully concealed and the
                   placement of threat objects on sensitive areas. Other efforts already taken by TSA
                   to increase the realism and difﬁculty of local operational testing include the use of
                   “bogus” boarding passes from aircraft operators so that the individual carrying a
                   test object into the checkpoint appears to be a regular passenger and the proposal
                   of adding new test items to the MBS-2 and Weapons kits. In addition, TSA is
                   testing a new ETD training and testing aid that will be used to assess screener
                   trace sampling skills and is beginning to develop simulated items for EDS that
                   can be inserted into the testing and training kits.

                   OIG Evaluation: We are hopeful that TSA’s study will result in the permission
                   to use threat objects that are artfully concealed in baggage and placed on sensitive
                   areas of the body during local operation testing. In addition, we are encouraged
                   by the current testing and development of ETD and EDS operational testing tools.
                   Recommendation 18 is resolved – open.

                   Recommendation 19: Fund and resume installation of computer training labs and
                   high-speed network connectivity to provide all screeners with full access to the
                   Online Learning Center.

                   TSA Response: The TSA Chief Information Ofﬁcer has a comprehensive plan
                   to implement high-speed connectivity at more than 500 screener and support
                   staff sites. To date, TSA has established high-speed connectivity primarily for
                   FSD ofﬁce locations. Further progress is dependent on funding availability. TSA
                   asserted that funding the network installations is a high-priority issue for TSA and
                   that TSA has the support of the DHS CIO Council.

                   OIG Evaluation: We recognize the efforts of TSA’s Ofﬁce of Information
                   Technology in planning extensively for the implementation of high-speed
                   connectivity at ﬁeld sites. We also acknowledge that TSA has many competing
                   demands for its resources. Choosing to fund the installation of high-speed
                   connectivity at all screener sites will enable TSA to use the advanced training
                   features in the Online Learning Center, plus it will decrease the clerical burden
                   on training coordinators who must log training by hand. We encourage TSA
                   to continue to improve connectivity at ﬁeld sites. Recommendation 19 is
                   resolved – open.




Page 104                      An Evaluation of TSA’s Screener Training and Methods of Testing
                                                                             Appendix B
                                                  OIG Evaluation of Management Comments



    Recommendation 20: Ensure that screeners are scheduled for basic classroom
    training that provides initial certiﬁcation on the speciﬁc make and model of ETD
    and EDS machines that they operate.

    TSA Response: TSA does not concur with the recommendation. TSA stated that
    all screeners do receive initial training and certiﬁcation on any speciﬁc make and
    model of equipment they operate. Due to logistical and resource issues, TSA does
    not believe it is practical or feasible to require annual re-certiﬁcation on particular
    makes and models of machines.

    OIG Evaluation: While TSA policy may require certiﬁcation for each make
    and model of equipment a screener operates, our ﬁeld observations were that the
    policy was not consistently followed. In cases where screeners received formal
    classroom training on equipment models inappropriate for their duty assignment,
    the screeners may later have received “differences” training for the appropriate
    models at their airports. However, machine certiﬁcation should be completed
    in a controlled classroom setting, not an active checkpoint. It is important that
    screeners have a comprehensive understanding and familiarity with the speciﬁc
    types of machines they will be operating before they do so in a live screening
    environment during OJT. The risks of improperly screening carry-on items and
    checked baggage, damaging expensive machinery, and creating screening delays
    are too great to permit machine certiﬁcation to occur after screeners are working
    in a live setting.

    Given the current structure of TSA’s annual screener re-certiﬁcation process, we
    accept TSA’s explanation that machine make- and model-speciﬁc re-certiﬁcation
    would not be feasible at all airports. Therefore, we modiﬁed our recommendation
    to exclude an annual re-certiﬁcation requirement on speciﬁc makes and models of
    ETD and EDS equipment. Nevertheless, because TSA has made no commitment
    to certify screeners on speciﬁc machine makes and models during initial
    classroom training, Recommendation 20 is unresolved.

    Recommendation 21: Improve management controls for the screener scheduling
    system, such as linking scheduling to employee qualiﬁcations in the Online
    Learning Center, to ensure that TSA schedules screeners to operate only
    equipment on which they are certiﬁed.




An Evaluation of TSA’s Screener Training and Methods of Testing                   Page 105
Appendix B
OIG Evaluation of Management Comments



                   TSA Response: TSA agreed that the Online Learning Center is the ofﬁcial
                   repository of employee certiﬁcations data and that it could be integrated with the
                   Sabre scheduling tool through the proposed Ofﬁce of Information Technology
                   Integration Services program.

                   OIG Evaluation: TSA staff envisioned enabling the Online Learning Center
                   and Sabre scheduling tool to share data as a long-range goal. In its action
                   plan, TSA should include an update on progress toward the data integration.
                   Recommendation 21 is resolved – open.

                   Recommendation 22: Continue efforts toward the development and advancement
                   of technologies to support screening efforts. Resource investment should place
                   particular emphasis on technologies for passenger checkpoint screening, as
                   passenger screening procedures are more operator dependent and, thus, more
                   vulnerable to human factors than checked baggage screening.

                   TSA Response: TSA agrees that efforts toward the development and
                   advancement of security screening technologies, with an emphasis on passenger
                   checkpoint technologies, should be continued. TSA is conducting pilot programs
                   to test technologies that will identify explosives carried on a person as well as
                   on documents, such as boarding passes. In addition, an explosives detection
                   technology prototype that will act as an automated certiﬁed EDS for carry-
                   on baggage is being tested and will be an adjunct system to the current x-ray
                   technology at screening checkpoints.

                   OIG Evaluation: TSA’s response demonstrates a continued commitment to
                   pursue needed technological development and deployment efforts. Recent
                   pilot testing of new tools for passenger screening are directly responsive to this
                   recommendation. Recommendation 22 is closed.




Page 106                      An Evaluation of TSA’s Screener Training and Methods of Testing
                                                                                     Appendix C
                                                                                Recommendations



Recommendations
              Recommendation 1: Complete the analysis for basic screener classroom training,
              both for passenger checkpoint and checked baggage screeners, and institute
              mechanisms to ensure that staff update the analysis at least annually and apply the
              results to curriculum revisions.

              Recommendation 2: Ensure that passenger checkpoint and checked baggage
              basic course objectives (1) address the knowledge and skills necessary for routine
              screener performance, as identiﬁed by the most current task analysis, and (2) are
              presented to students at the beginning of course lessons.

              Recommendation 3: Further revise written examinations and administration
              procedures, including the following steps:

                    • 	 Ensure all course objectives receive an appropriate assessment of student
                        learning;
                    • 	 Thoroughly validate tests, including passing scores, if they are to be used
                        for selection decisions;
                    • 	 Pilot-test examination questions to ensure their clarity and objectivity;
                    • 	 Schedule tests later during the course to enhance their ability to measure
                        students’ long-term retention of course material; and
                    • 	 Incorporate post-test reviews to prevent screener misconceptions from
                        being carried into the workplace.

              Recommendation 4: Develop and distribute detailed test administration
              guidelines for Practical Demonstration of Proﬁciency Evaluations with the aim of
              increasing standardization.

              Recommendation 5: Distribute effective training materials to reinforce learning
              and allow for individual study outside the classroom.

              Recommendation 6: Require all TSA approved instructors to complete an
              appropriate form of OJT prior to providing instruction and to undergo annual
              recertiﬁcation testing.




          An Evaluation of TSA’s Screener Training and Methods of Testing		                Page 107
Appendix C
Recommendations



                  Recommendation 7: Analyze the cost and feasibility of establishing designated
                  training sites where screening equipment, simulators, and training aids can be
                  permanently located and readily available to students.

                  Recommendation 8: Use alternatives to lectures more frequently during
                  classroom training to help maintain student attentiveness, contribute to the
                  comprehension and mastery of new knowledge and skills, and foster retention of
                  the material.

                  Recommendation 9: Cease all coaching of students during practical
                  demonstration of proﬁciency evaluations.

                  Recommendation 10: Ensure that leadership within the screener workforce
                  diligently monitors screeners and immediately corrects identiﬁed failures to
                  adhere to screening procedures and negligent screening techniques.

                  Recommendation 11: Continue the development of evaluations that will relate
                  training to screener application of learning on the job and to organizational
                  results.

                  Recommendation 12: Ensure that OJT guidance provides detailed, sequenced
                  lists of speciﬁc tasks that each OJT student must perform, including instructional
                  materials where needed, and establishes appropriate, function-speciﬁc time
                  requirements for both newly hired and cross-trained screeners.

                  Recommendation 13: Revise OJT examinations in order to:

                      • 	 Test screeners on all TSA-approved screening methods that they will be
                          required to use upon completion of OJT;
                      • 	 Enforce the use of tests with explosive material during ETD practical
                          examinations; and
                      • 	 Standardize and enforce limits on OJT retesting opportunities, including
                          the Image Mastery Test.

                  Recommendation 14: Ensure OJT monitors are certiﬁed as having the skills
                  and experience necessary to deliver and monitor OJT training and administer
                  subsequent testing.




Page 108		                   An Evaluation of TSA’s Screener Training and Methods of Testing
                                                                          Appendix C
                                                                     Recommendations



    Recommendation 15: Examine the workforce implications of the three-hour
    training requirement and take steps to correct identiﬁed imbalances in future
    workforce planning to ensure that all screeners are able to meet the recurrent
    training standard.

    Recommendation 16: Continue to pursue the development and application of TIP
    user adaptability features to maximize TIP training beneﬁts.

    Recommendation 17: Expedite TRX connectivity to realize administrative and
    information sharing gains related to TIP.

    Recommendation 18: Further enhance local operational testing efforts by: (1)
    revising procedures and protocols to increase opportunities for realistic and
    difﬁcult testing, and (2) expediting the development, certiﬁcation, and distribution
    of ETD and EDS operational testing tools to enable assessment of screeners
    performing these duties.

    Recommendation 19: Fund and resume installation of computer training labs and
    high-speed network connectivity to provide all screeners with full access to the
    Online Learning Center.

    Recommendation 20: Ensure that screeners are scheduled for basic classroom
    training that provides initial certiﬁcation on the speciﬁc make and model of ETD
    and EDS machines that they operate.

    Recommendation 21: Improve management controls for the screener scheduling
    system, such as linking scheduling to employee qualiﬁcations in the Online
    Learning Center, to ensure that TSA schedules screeners to operate only
    equipment on which they are certiﬁed.

    Recommendation 22: Continue efforts toward the development and advancement
    of technologies to support screening efforts. Resource investment should place
    particular emphasis on technologies for passenger checkpoint screening, as
    passenger screening procedures are more operator dependent and, thus, more
    vulnerable to human factors than checked baggage screening.




An Evaluation of TSA’s Screener Training and Methods of Testing                Page 109
Appendix D
	
TSA’s Interim Screener Recurrent Training Program Guidance—December 22, 2003
	




Page 110                      An Evaluation of TSA’s Screener Training and Methods of Testing
                                                                    Appendix D
	
    TSA’s Interim Screener Recurrent Training Program Guidance—December 22, 2003
	




An Evaluation of TSA’s Screener Training and Methods of Testing        Page 111
	
Appendix D
TSA’s Interim Screener Recurrent Training Program Guidance—December 22, 2003




Page 112                      An Evaluation of TSA’s Screener Training and Methods of Testing
                                                                  Appendix D
	
  TSA’s Interim Screener Recurrent Training Program Guidance—December 22, 2003
	




An Evaluation of TSA’s Screener Training and Methods of Testing        Page 113
	
Appendix D
	
TSA’s Interim Screener Recurrent Training Program Guidance—December 22, 2003
	




Page 114                      An Evaluation of TSA’s Screener Training and Methods of Testing
                                                                                   Appendix E
                                                              Major Contributors to this Report



    Melissa M. Howard, Chief Inspector, Department of Homeland Security, Ofﬁce of
    Inspections, Evaluations, and Special Reviews

    Meredith L. Megles, Senior Inspector, Department of Homeland Security, Ofﬁce
    of Inspections, Evaluations, and Special Reviews

    E. Wynne Krause, Inspector, Department of Homeland Security, Ofﬁce of
    Inspections, Evaluations, and Special Reviews

    Justin H. Brown, Inspector, Department of Homeland Security, Ofﬁce of
    Inspections, Evaluations, and Special Reviews

    Jennifer A. Lindsey, Inspector, Department of Homeland Security, Ofﬁce of
    Inspections, Evaluations, and Special Reviews




An Evaluation of TSA’s Screener Training and Methods of Testing                       Page 115
Appendix F
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      General Counsel
                      Under Secretary, Border and Transportation Security
                      DHS OIG Liaison
                      DHS Public Affairs
                      DHS Deputy Chief Security Ofﬁcer

                      Transportation Security Administration

                      Assistant Secretary of Homeland Security for the Transportation Security
                      Administration
                      Director, Workforce Performance and Training
                      Director, Aviation Operations
                      Director, Human Resources
                      Director, Information Technology
                      Director, Internal Affairs and Program Review
                      Director, Security Technology
                      Director, Operations Policy
                      DHS OIG Audit Liaison, Ofﬁce of Transportation Security Policy

                      Ofﬁce of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Program Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees




Page 116                         An Evaluation of TSA’s Screener Training and Methods of Testing
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at www.
dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland Security, Washington, DC
20528, Attn: Ofﬁce of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
